<html>
<title> - EXAMINING THE PRESIDENT'S FISCAL YEAR 2019 BUDGET REQUEST FOR THE TRANSPORTATION SECURITY ADMINISTRATION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
   EXAMINING THE PRESIDENT'S FISCAL YEAR 2019 BUDGET REQUEST FOR THE 
                 TRANSPORTATION SECURITY ADMINISTRATION

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                           TRANSPORTATION AND
                          PROTECTIVE SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 12, 2018

                               __________

                           Serial No. 115-58

                               __________

       Printed for the use of the Committee on Homeland Security
       
       
       
                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

        Available via the World Wide Web: http://www.govinfo.gov

                                 __________
                               
                      U.S. GOVERNMENT PUBLISHING OFFICE
                   
 30-896 PDF                 WASHINGTON : 2018                                  
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Lou Barletta, Pennsylvania           Cedric L. Richmond, Louisiana
Scott Perry, Pennsylvania            William R. Keating, Massachusetts
John Katko, New York                 Donald M. Payne, Jr., New Jersey
Will Hurd, Texas                     Filemon Vela, Texas
Martha McSally, Arizona              Bonnie Watson Coleman, New Jersey
John Ratcliffe, Texas                Kathleen M. Rice, New York
Daniel M. Donovan, Jr., New York     J. Luis Correa, California
Mike Gallagher, Wisconsin            Val Butler Demings, Florida
Clay Higgins, Louisiana              Nanette Diaz Barragan, California
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
Don Bacon, Nebraska
                   Brendan P. Shields, Staff Director
                   Steven S. Giaier,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

         SUBCOMMITTEE ON TRANSPORTATION AND PROTECTIVE SECURITY

                     John Katko, New York, Chairman
Mike Rogers, Alabama                 Bonnie Watson Coleman, New Jersey
Clay Higgins, Louisiana              William R. Keating, Massachusetts
Brian K. Fitzpatrick, Pennsylvania   Donald M. Payne, Jr., New Jersey
Ron Estes, Kansas                    Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Kyle D. Klein, Subcommittee Staff Director
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Chairman, Subcommittee on Transportation 
  and Protective Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bonnie Watson Coleman, a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Transportation and Protective Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................    10

                               Witnesses

Mr. David P. Pekoske, Administrator, Transportation Security 
  Administration, U.S. Department of Homeland Security:
  Oral Statement.................................................     7
  Joint Prepared Statement.......................................     9
Mr. Kevin M. Burke, President, Office of Security Operations, 
  Airports Council International North America:
  Oral Statement.................................................    28
  Joint Prepared Statement.......................................    30
Mr. Jeffrey David Cox, National President, American Federation of 
  Government Employees:
  Oral Statement.................................................    32
  Joint Prepared Statement.......................................    34

                                Appendix

Questions From Chairman John Katko for David P. Pekoske..........    45
Questions From Ranking Member Bonnie Watson Coleman for David P. 
  Pekoske........................................................    45
Questions From Ranking Member Bennie G. Thompson for David P. 
  Pekoske........................................................    45
Question From Honorable William R. Keating for David P. Pekoske..    49
Questions From Ranking Member Bennie G. Thompson for Jeffrey 
  David Cox......................................................    49
Questions From Honorable William R. Keating for Jeffrey David Cox    50


   EXAMINING THE PRESIDENT'S FISCAL YEAR 2019 BUDGET REQUEST FOR THE 
                 TRANSPORTATION SECURITY ADMINISTRATION

                              ----------                              


                        Thursday, April 12, 2018

             U.S. House of Representatives,
                    Subcommittee on Transportation 
                           and Protective Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:04 p.m., in 
room HVC-210, Capitol Visitor Center, Hon. John Katko (Chairman 
of the subcommittee) presiding.
    Present: Representatives Katko, Rogers, Higgins, 
Fitzpatrick, Estes, Watson Coleman, Keating, and Payne.
    Also present: Representatives Thompson and Demings.
    Mr. Katko. The Committee on Homeland Security, Subcommittee 
on Transportation and Protective Security will come to order. 
The subcommittee is meeting today to examine TSA's fiscal year 
2019 budget request. I now recognize myself for an opening 
statement.
    The Transportation Security Administration remains one of 
the most crucial components to securing the homeland against 
new and evolving threats to the traveling public and our way of 
life. That is why it is incumbent upon this committee, 
subcommittee to take a serious look at the recently submitted 
fiscal year 2019 budget request to Congress, by which we are 
provided the opportunity to understand the administration's 
priorities as they relate to transportation security.
    This year's budget request stands at $7.7 billion for 
fiscal year 2019, which is a $143.8 million increase from last 
year's request and approximately $500 million higher than 
currently enacted funding levels. I believe that this budget 
supports TSA's central mission of protecting the Nation's 
transportation systems, and I am pleased to see the 
administration better allocating resources based on risks and 
current threats than prior years.
    Under the leadership of Administrator Pekoske, it has 
become clear that TSA continues to move in the right direction 
by working to raise aviation security standards around the 
world and recognizing we are only as secure as our weakest 
link. At a time when threats to aviation remain troublingly 
persistent, I am pleased to see Administrator Pekoske taking 
necessary steps to improve TSA programs, processes, and 
technologies.
    However, I do have a number of concerns with some of the 
proposed budgetary numbers in this year's request. For 
instance, the request for funding to secure 145 computed 
tomography systems seems woefully short of what is needed to 
adequately deploy this advanced technology to airport 
checkpoints, while I should note that there is about over 2,500 
actual machines that need to be replaced Nation-wide, so 145 
just seems like too much of a drop in the bucket. While I am 
pleased that recently-enacted appropriations for 2018 provided 
additional resources for CT deployment, I intend to continue 
pressing this issue for fiscal year 2019.
    Additionally, continuing on the theme from last year's 
budget request, the administration is proposing further cuts to 
its law enforcement officer reimbursement program. This program 
provides critical funding to State and local law enforcement 
entities charged with ensuring the safety and security of 
America's airports, including TSA personnel. At a time when 
public area security remains a top concern, I find this 
proposal to be insufficient.
    Last, TSA's proposed cuts to its Surface Transportation 
Security Program come just after the 2017 attempted suicide 
attack at New York City's Port Authority bus terminal, where 
bus and mass transit commuters were targeted. While I agree 
that TSA has consistently been unable to demonstrate the 
security effectiveness of the agency's VIPR teams or surface 
inspectors, I believe the agency should work to ensure 
sufficient resources and support for surface transportation in 
other ways.
    Simply put, combining these cuts with additional cuts to 
the Transportation Security Grant Program elsewhere in the 
Department of Homeland Security's budget request seems out of 
step with the vulnerability of surface transportation systems. 
That is why the House recently passed a number of committee 
bills aimed at ensuring TSA prioritizes surface transportation.
    Despite these challenges, I believe that in general TSA is 
making great strides to improved risk-based security and is 
better reflecting risk in the budget than in prior years. I 
hope that TSA will continue working to be even more responsive 
to changing threats and that Administrator Pekoske will 
continue to set a tone that encourages regular engagement with 
stakeholders and empowers front-line personnel.
    Administrator Pekoske, you have a lot of work cut out for 
you, as you well know, and I hope you will use your position to 
root out problems at TSA, whether they be programs, processes, 
or personnel, and having met you a number of times on these 
issues I am confident that this will be the case. I am also 
hopeful that the Senate gets off their butt at some point and 
passes a bill which allows for a 5-year term for a TSA 
administrator.
    Moreover, I intend to utilize this subcommittee to ensure 
robust oversight of TSA's programs and promote policies that 
will enhance the security of the traveling public and give them 
confidence in the homeland security enterprise. I thank the 
administration for appearing before the subcommittee today, as 
well as our second panel, and I look forward to hearing the 
testimony of all of you.
    [The statement of Chairman Katko follows:]
                    Statement of Chairman John Katko
                             April 12, 2018
    The Committee on Homeland Security Subcommittee on Transportation 
and Protective Security will come to order.
    The subcommittee is meeting today to examine TSA's fiscal year 2019 
budget request. I now recognize myself for an opening statement.
    The Transportation Security Administration remains one of the most 
crucial components to securing the homeland against new and evolving 
threats to the traveling public and our way of life. That is why it is 
incumbent upon this subcommittee to take a serious look at the recently 
submitted fiscal year 2019 budget request to Congress, by which we are 
provided the opportunity to understand this administration's priorities 
as they relate to transportation security.
    This year's budget request stands at $7.7 billion for fiscal year 
2019, which is a $143.8 million increase from last year's request and 
approximately $500 million higher than currently enacted funding 
levels.
    I believe that this budget supports TSA's central mission of 
protecting the Nation's transportation systems, and I am pleased to see 
the administration better allocating resources based on risks and 
current threats than prior years.
    Under the leadership of Administrator Pekoske, it has become clear 
that TSA is moving in the right direction by working to raise aviation 
security standards around the world and recognizing that we are only as 
secure as our weakest link.
    At a time when threats to aviation remain troublingly persistent, I 
am pleased to see Administrator Pekoske taking necessary steps to 
improve TSA programs, processes, and technologies. However, I do have a 
number of concerns with some of the proposed budgetary numbers in this 
year's request. For instance, the request for funding to procure 145 
Computed Tomography systems seems woefully short of what is needed to 
adequately deploy this advanced technology to airport checkpoints. 
While I am pleased that recently enacted appropriations for fiscal year 
2018 provided additional resources for CT deployment, I intend to 
continue pressing this issue for fiscal year 2019.
    Additionally, continuing on the theme from last year's budget 
request, the administration is proposing further cuts to its Law 
Enforcement Officer Reimbursement Program. This program provides 
critical funding to State and Local law enforcement entities charged 
with ensuring the safety and security of America's airports, including 
TSA personnel.
    At a time when public area security remains a top concern, I find 
this proposal to be insufficient. Last, TSA's proposed cuts to its 
Surface Transportation Security Program come just after the December 
2017 attempted suicide attack at New York City's Port Authority Bus 
Terminal, where bus and mass transit commuters were targeted.
    While I agree that TSA has consistently been unable to demonstrate 
the security effectiveness of the agency's VIPR teams or Surface 
Inspectors, I believe the agency should work to ensure sufficient 
resources and support for surface transportation in other ways.
    Simply put, combining these cuts with additional cuts to the 
Transit Security Grant Program elsewhere in the Department of Homeland 
Security's budget request seems out of step with the vulnerability of 
surface transportation systems. That is why the House recently passed a 
number of committee bills aimed at ensuring TSA prioritizes surface 
transportation.
    Despite these challenges, I believe that, in general, TSA is making 
strides to improve risk-based security and is better-reflecting risk in 
the budget than in prior years.
    I hope that TSA will continue working to be even more responsive to 
changing threats, and that Administrator Pekoske will continue to set a 
tone that encourages regular engagement with stakeholders and empowers 
front-line personnel.
    Administrator Pekoske, you have a lot of work cut out for you, and 
I hope you will use your position to root out problems at TSA--whether 
they be programs, processes, or personnel. Having met a number of times 
on these issues, I am confident that this will be the case.
    Moreover, I intend to utilize this subcommittee to ensure robust 
oversight of TSA's programs and promote policies that will enhance the 
security of the traveling public and give them confidence in the 
Homeland Security Enterprise.
    I thank the administrator for appearing before the subcommittee 
today, as well as our second panel, and I look forward to hearing the 
testimony.
    I am pleased to recognize the Ranking Member of the subcommittee, 
the gentlelady from New Jersey, Mrs. Watson Coleman, for her opening 
statement.

    Mr. Katko. I am pleased to recognize the Ranking Member of 
the subcommittee, the gentlelady from New Jersey, my friend, 
Mrs. Watson Coleman, for her opening statement.
    Mrs. Watson Coleman. Thank you, Mr. Chairman. I ask 
unanimous consent for the gentlelady from Florida, Ms. Val 
Demings, to be seated on this panel and allow to question the 
witness.
    Mr. Katko. Without objection.
    Mrs. Watson Coleman. Thank you, Mr. Chairman. Thank you for 
holding this hearing, and thank you also to the administrator 
for joining us today.
    Everyone here today is well aware of the serious nature of 
the terrorist threat facing our transportation systems. Time 
and time again, we are provided chilling evidence of 
terrorists' intent to inflict harm against innocent Americans 
by attacking planes, subways, or buses. Each time we ask 
ourselves and our expert witnesses, what more can we be doing 
to protect against such ruthless attacks? Over and over, we are 
told, ``It is simply a matter of resources. We have great ideas 
and great security measures. We just need more funding to 
deploy more officers, more canines, more technology.''
    That is why it is so disappointing that this 
administration's TSA budget proposal eliminates, cuts or short-
changes critical security programs. I have made repeated calls 
for increased security for surface transportation systems. The 
threat is clear, as we have seen mostly in overseas attacks. 
But last December, the threat hit home when an attacker 
detonated a bomb within the New York City subway system.
    So how does the President's budget address this growing 
dangerous threat? It proposes building a border wall, paid for 
by gutting the few programs aimed at securing surface 
transportation. Specifically, the President's proposed budget 
calls for eliminating TSA's VIPR program and cutting by nearly 
two-thirds of the Transit Security Grant Program which provides 
security funding to transit owners and operators.
    Let me give you another example of where the President's 
budget inexplicably short-changes security. Repeatedly, we have 
seen attacks occurring within public airport areas, from 
Brussels to Los Angeles and Paris to New Orleans, Istanbul to 
Fort Lauderdale. Airports are crowded, open, critical spaces 
and attacks can result in significant loss of life. So how does 
the President's budget address this threat? It proposes 
building a border wall, paid for by eliminating the law 
enforcement officer reimbursement program, which assists local 
law enforcement and providing police coverage to airports and 
TSA checkpoints, and by shifting TSA's duty to secure exit 
lanes to airports and local jurisdictions.
    Finally, when it comes to the TSA workforce, the 
President's budget proposal is just off-base. TSA officers are 
overworked and underpaid. In 2017, TSA employees ranked 336th 
out of 339 Government agencies in overall morale and dead last 
in satisfaction with their pay. TSA operates its own personnel 
and pay system and does not afford its employees the same 
regular salary increase and disciplinary rights enjoyed by most 
other Federal workers. That is just not fair.
    As a result, TSA deals with high attrition rates and 
insufficient staffing levels. In response to these programs, 
the President's budget proposes--you guessed it--building a 
border wall rather than investing in the dedicated TSA work 
force and providing them the rights they deserve.
    Somehow these examples are just a small sampling of 
problems with the budget proposal, which also fails to invest 
adequately in computed tomography, or CT, machines, does not 
increase funding for highly effective canine teams, and 
proposes increasing passenger security fees, despite the on-
going diversion of much of those fees from TSA's 
appropriations.
    This budget proposal is a result of a President choosing to 
prioritize his misguided campaign promise to build an $18 
billion border wall over urgent National security needs. Since 
he said Mexico was going to pay for this wall, we shouldn't 
even be having this discussion. It is unacceptable and Congress 
must reject it.
    I am encouraged that the recently passed omnibus 
prioritizes some of our most pressing transportation security 
needs, providing $43 million in funding for 31 VIPR teams, $45 
million for the LEO reimbursement programs, and $77 million to 
continue securing exit lanes. That this omnibus presents such a 
sharp contrast to the proposed budget we are discussing today 
should raise some red flags. I hope that this hearing will help 
shed light on the devastating effects this budget would have if 
it were enacted.
    Again, I want to thank my Chairman and our witnesses and I 
yield back the balance of my time.
    [The statement of Ranking Member Watson Coleman follows:]
           Statement of Ranking Member Bonnie Watson Coleman
                             April 12, 2018
    Everyone here today is well aware of the serious nature of the 
terrorist threat facing our transportation systems.
    Time and time again, we are provided chilling evidence of 
terrorists' intent to inflict harm against innocent Americans by 
attacking planes, subways, or buses.
    Each time, we ask ourselves and our expert witnesses: What more can 
we be doing to protect against such ruthless attacks?
    And over and over, we are told: ``It is simply a matter of 
resources.''
    ``We have great ideas and great security measures; we just need 
more funding to deploy more officers, more canines, more technology.''
    That is why it is so disappointing that this administration's TSA 
budget proposal eliminates, cuts, or shortchanges critical security 
programs.
    I have made repeated calls for increased security for surface 
transportation systems.
    The threat is clear, as we have seen mostly in overseas attacks.
    Last December, the threat hit home when an attacker detonated a 
bomb within the New York City subway system.
    So how does the President's budget address this growing, dangerous 
threat?
    It proposes building a border wall, paid for by gutting the few 
programs aimed at securing surface transportation.
    Specifically, the President's proposed budget calls for eliminating 
TSA's Visible Intermodal Prevention and Response or ``VIPR'' program 
and cutting by nearly two-thirds of the Transit Security Grant Program 
which provides security funding to transit owners and operators.
    Let me give you another example of where the President's budget 
inexplicably shortchanges security.
    Repeatedly, we have seen attacks occurring within public airport 
areas, from Brussels to Los Angeles, Paris to New Orleans, Istanbul to 
Ft. Lauderdale.
    Airports are crowded, open, critical spaces, and attacks can result 
in significant loss of life.
    So how does the President's budget address this threat?
    It proposes building a border wall, paid for by eliminating the Law 
Enforcement Officer Reimbursement Program which assists local law 
enforcement in providing police coverage to airports and TSA 
checkpoints, and by shifting TSA's duty to secure exit lanes to 
airports and local jurisdictions.
    Finally, when it comes to the TSA workforce, the President's budget 
proposal is just as off-base.
    TSA officers are overworked and underpaid.
    In 2017, TSA employees ranked 336th out of 339 Government agencies 
in overall morale, and dead last in satisfaction with their pay.
    TSA operates its own personnel and pay system and does not afford 
its employees the same regular salary increases and disciplinary rights 
enjoyed by most other Federal workers.
    As a result, TSA deals with high attrition rates and insufficient 
staffing levels.
    In response to these problems, the President's budget proposes--you 
guessed it--building a border wall rather than investing in the 
dedicated TSA workforce and providing them the rights they deserve.
    Somehow, these examples are just a small sampling of problems with 
the budget proposal, which also fails to invest adequately in Computed 
Tomography or ``CT'' machines, does not increase funding for highly 
effective canine teams, and proposes increasing passenger security fees 
despite the on-going diversion of much of those fees from TSA's 
appropriations.
    This budget proposal is the result of a President choosing to 
prioritize his misguided campaign promise to build an $18 billion 
border wall over urgent National security needs.
    It is unacceptable, and Congress must reject it.
    I am encouraged that the recently passed omnibus prioritizes some 
of our most pressing transportation security needs, providing $43 
million in funding for 31 VIPR teams, $45 million for the LEO 
Reimbursement Program, and $77 million to continue securing exit lanes.
    That this omnibus presents such a sharp contrast to the proposed 
budget we are discussing today should raise some red flags.
    I hope this hearing today will help shed light on the devastating 
effects this budget would have if it were enacted.

    Mr. Katko. Thank you, Mrs. Watson Coleman. Other Members of 
the subcommittee are reminded that opening statements may be 
submitted for the record.
    We are pleased to have two distinguished panels of 
witnesses before us today. Let me remind the witnesses that 
their entire written statements will appear verbatim in the 
record. In our first panel, we are pleased to have Admiral 
David Pekoske, the seventh TSA administrator--at least six that 
I have had as part of my time here as Chair in 3\1/2\ years, 
which is crazy--and hopefully you are going to be here for a 
while--and you are here to testify before us today on this 
critical topic.
    In his role as administrator, Mr. Pekoske is responsible 
for securing the Nation's civil aviation system and surface 
transportation modes. He leads a work force of approximately 
60,000 employees who work to protect the Nation's 
transportation systems while ensuring freedom of movement for 
people and commerce.
    Prior to joining TSA, Mr. Pekoske served as the 26th vice 
commandant of the U.S. Coast Guard. Sir, thank you for your 
service to our country and for continuing your service to your 
country in this current role. You are now recognized for 5 
minutes for an opening statement.

 STATEMENT OF DAVID P. PEKOSKE, ADMINISTRATOR, TRANSPORTATION 
 SECURITY ADMINISTRATION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Pekoske. Thank you, Mr. Chairman and Ranking Member 
Watson Coleman, Members of this subcommittee. I appreciate the 
opportunity to appear before you this afternoon and for the 
opportunity to have a discussion and answer your questions with 
respect to TSA's budget and TSA's overall operations.
    The President's fiscal 2019 budget reflects our highest 
priority funding needs in performing the critical mission of 
protecting our transportation system. I will briefly highlight 
some of the elements of that budget request in a moment.
    But before I touch on the budget, I would like to express 
my appreciation for this committee for ensuring that TSA has 
the necessary authorities needed to secure the world's most 
complex and valuable transportation system. As you know, I have 
exercised the security directive and emergency amendment 
authorities provided in ATSA several times in my 8 months as 
the administrator. I exercised those authorities to meet a 
current threat, and my policy is always to consult with 
industry in advance of issuing security directives or emergency 
amendments. I appreciate the excellent collaboration that 
exists between the industry and TSA.
    But it is important, in my view, to obtain the broad 
authorities granted in law to ensure that we can quickly act 
and decisively act when needed, and I appreciate this 
committee's support in this regard. I appreciate your work in 
passing a reauthorization bill for TSA through the House, and 
consistent with your priorities, I am focused on the insider 
threat in our aviation system and have asked our aviation 
security advisory committee to undertake another review of this 
issue.
    Your support of the Rap Back process has already improved 
security at our airports. We have launched a third-party canine 
cargo program recently to facilitate the use of canines in 
cargo security. Our third industry day is next week down at our 
canine training center in San Antonio, and I would say that the 
collaboration with industry on this topic has been excellent.
    We have a new strategy for TSA that focuses on improving 
security, accelerating our decision-making and technology 
deployment processes, and firmly committing to the deployment 
and support--development and support, rather, of our work 
force, all priorities this committee has long advocated.
    Additionally, I appreciate the oversight this committee 
provides TSA and I hope you have found me and my team highly 
responsive to your request for information since our January 
hearing.
    I would like to at this point highlight a few items in the 
President's budget request. First, the budget begins full-scale 
deployment funding for the administration's and this 
committee's top priority, as the Chairman already mentioned, 
the computed tomography X-ray equipment at domestic airport 
checkpoints. This program is on track. We have five 
participating vendors. Of the five, two are small businesses.
    The next phase of this project is developmental and 
operational testing. Our vendors are manufacturing the test 
systems now, and we expect to have approximately 35 systems 
either deployed at our test labs, in our training centers, or 
at airports over the course of this summer. If all the testing 
goes well, full-scale implementation will begin early in 
calendar year 2019.
    The President's budget provides $72 million for 145 units 
in fiscal 2019, and I am committed to successfully fielding 
this technology as quickly as I can. The budget also provides 
$7 million to fund nearly 300 credential authentication 
technology units. These units improve the travel document 
checker function at our security checkpoint. That function is 
the first person that a passenger meets when they come in 
through the TSA area of a checkpoint.
    Forty-two of these units are now being tested in select 
PreCheck lanes in 13 airports across the country, and that 
testing is going very well. In total, approximately 1,500 of 
these units are needed. With fiscal year 2019 funding, we will 
have over 300 of the 1,500 to be fielded, or approximately 20 
percent. Both CT, the computed tomography X-ray equipment, and 
the credential authentication technology are key essential 
parts of our security checkpoint, and I appreciate the 
committee's full support of these mission-critical systems.
    On surface transportation, the budget sustains our level of 
effort with the exception of the elimination of the VIPR teams, 
and I appreciate, as you know, in my prior testimony and in my 
individual conversations with Members of this committee, I 
appreciate the hard work and the value that the VIPR teams have 
brought to both aviation and surface transportation security. 
The budget reflects a need simply to prioritize funding within 
a constrained budget and acknowledge the capability that 
already exists at the State and local levels. We will continue 
to work closely with surface transportation system owners and 
operators in sharing intelligence information, developing 
guidelines, sharing best practices, providing canine 
capability, and our close work with them on exercises, 
training, and security summits.
    Long-term capital and technology planning is important to 
sustaining progress in deploying this technology to the hands 
of the users. We have developed a capital investment plan for 
TSA to guide our next year, our fiscal 2020 budget submission 
now before the Department of Homeland Security. This will 
provide us the ability to provide a longer-term and strategic 
look at our capital investment requirements for TSA.
    This technology is great, and it is urgently needed, but is 
only useful in the hands of the outstanding men and women--some 
60,000 strong--who are TSA. Their role in providing a secure 
transportation system cannot be overstated. Through dedication 
and hard work, we have maintained a secure transportation 
system, we have raised the bar on global aviation security. We 
screen roughly 2 million passengers through our domestic 
airports every single day, ensure compliance with our 
regulations, and introduce new leading-edge security into the 
checkpoint.
    TSA's work force is at the core of our new strategy, and I 
am keenly focused on increasing job satisfaction, morale, 
improving communications, and soliciting their ideas for a 
better TSA, as well as providing professional leadership 
development to our work force.
    Mr. Chairman, I appreciate the opportunity to make an 
opening statement, and I look forward to your questions, sir.
    [The prepared statement of Mr. Pekoske follows:]
                 Prepared Statement of David P. Pekoske
                             March 14, 2018
    Good morning Chairman Katko, Ranking Member Watson Coleman, and 
distinguished Members of the subcommittee. Thank you for inviting me 
here today to testify on the President's fiscal year 2019 budget, which 
includes a request of $7.7 billion for the Transportation Security 
Administration (TSA).
    I am grateful for the longstanding and constructive relationship 
that TSA enjoys with this subcommittee. This budget supports our 
highest priority funding needs and allows TSA to continue its critical 
mission of protecting America's transportation systems.
    TSA was created in the wake of the September 11 attacks and charged 
with the mission of preventing another large-scale act of terrorism on 
the American transportation system. Many things have changed since that 
fateful day, but our fundamental mission has not. Our Nation relies on 
the professionals at TSA, and across the transportation community, to 
protect passengers and commerce traveling to and within the United 
States.
    Across the country, TSA screens more than 2 million passengers 
every day. Since September 11, 2001, there have been no successful 
attacks on the U.S. aviation system. Our motto, ``not on my watch,'' 
speaks to our commitment to defeat terrorist attempts to attack our 
transportation systems.
    Every day we are reminded anew that we face ambitious adversaries 
who are watching us, studying our vulnerabilities, and working hard to 
develop new attack strategies to replace those that have failed. To 
stay ahead of them, we have to innovate, we have to deploy new 
solutions rapidly and effectively, and we have to make the most of our 
resources. Since 9/11, we have taken bold and unprecedented steps to 
ensure the security of aviation. Aviation and transportation hubs 
remain highly-valued targets for terrorists, and terrorist modes and 
methods of attack are much more decentralized and opportunistic than 
ever before.
    Since my swearing in, I have made it a priority to meet with 
members of the TSA workforce, industry, and stakeholders. These 
discussions reinforce that our transportation systems fundamentally 
underpin our economy and that as technology is changing the way the 
world operates it is also changing the way our adversaries operate. 
Securing this environment requires a proactive and agile agency with a 
professional workforce that coordinates closely with key partners in 
Government and industry domestically and around the world.
    As I traveled across the transportation system, I met thousands of 
people who are deeply committed to the security of the system. These 
encounters strengthened my belief that security is a communal effort 
and that our greatest assets are--and will always be--our people, our 
partners, and the traveling public. These experiences have also led me 
to conclude that TSA must move faster if it is to meet the demands of 
the future. Faster to minimize vulnerabilities, faster to test new 
technology, and faster to procure and deploy new technology. In short, 
we need to be more agile.
    That is why I have set out in the new TSA Strategy, three key 
priorities: Improve security and safeguard the transportation system, 
accelerate action, and commit to our people. These priorities reflect 
my focus on preserving front-line operations, quickly transitioning to 
new technologies, and creating efficiencies to optimize limited 
resources.
    We believe strongly that innovation is central to our continued 
success. This firm belief inspired the creation of the TSA Innovation 
Task Force in 2016. This task force is collaborating with industry, 
airlines, and airport authorities to find and deploy the very best 
ideas for increasing security while reducing friction for the traveler.
    For example, with your help, we will drive as hard and fast as we 
can to rapidly deploy Computed Tomography (CT) systems to high-risk 
domestic airports in 2019. Our confidence in the security impact of 
these solutions has led us to request $71.5 million to purchase and 
deploy CT systems in fiscal year 2019. Research and development efforts 
have shown that CT is the most consequential technology available today 
for airport checkpoints, as it automates much of the threat detection 
function. We have devoted significant resources into testing this 
technology during this current fiscal year, and pending results, we 
anticipate operational tests will be conducted at up to eight airports 
in the coming months.
    The fiscal year 2019 budget request includes $71.5 million for CT 
technology, which will allow us to begin purchasing and deploying CT 
technology to airport checkpoints. This will allow for the purchase of 
at least 145 CT units and an additional $2.4 million for 19 new full-
time Transportation Security Specialists-Explosives to help respond to 
the increased alarm rates that we expect as we roll out the new 
technology. With the funding requested in the fiscal year 2019 
President's budget, we also plan to procure and deploy 294 credential 
authentication technology (CAT) units at a number of airports. CT and 
CAT are cornerstone technologies to transform security at the 
checkpoint.
    TSA has extraordinarily dedicated employees--people of high 
integrity, who have great respect for and commitment to our mission and 
to one another. Both the administration and I share a continued 
commitment to invest in and strengthen this workforce. Therefore, the 
fiscal year 2019 budget request includes funding for 43,877 full-time 
Transportation Security Officers. This request will increase TSA's 
workforce by 687 full-time Officers, which begins to address our front-
line shortfall in the face of increased passenger volume and evolving 
threats to aviation.
    To make the most of these budgetary priorities, we are asking 
industry and our stakeholders to partner with us to develop and deploy 
new technology. We are asking our employees to recommit to our core 
values of integrity, respect, and commitment, to be leaders regardless 
of their titles or level in the agency, and to be ambassadors for TSA. 
We ask members of the public to see themselves as part of the solution 
and to remember that the Officers at the checkpoint are doing their job 
to keep Americans safe. Finally, we ask you, the Members of this 
subcommittee, for your continued partnership, insight, and support.
    Securing our Nation's transportation system is a complex task and 
we cannot do it alone. Since our inception, TSA has lived by the motto 
``not on my watch.'' This has served as a powerful call to action for 
the TSA workforce. I hope to encourage an even stronger relationship 
between those outside TSA and those within by acknowledging our shared 
security mission. Together we will adopt and embrace a new creed: ``Not 
on Our Watch.''
    Chairman Katko, Ranking Member Watson Coleman, and Members of the 
subcommittee, thank you for the opportunity to testify before you 
today. I look forward to your questions.

    Mr. Katko. Thank you, Mr. Pekoske. I want to recognize the 
Chairman of the--Ranking Member, rather, of the Homeland 
Security Committee, Mr. Thompson. I don't believe he has a 
statement, but do you want to enter something in the record, 
sir?
    Mr. Thompson. Yes, I do. Thank you very much. I have a 
written statement that I would like to enter into the record. I 
will have some questions of the administrator at that time.
    Mr. Katko. Without objection. Thank you.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             April 12, 2018
    Effectively executing TSA's mission to secure the Nation's 
transportation systems is essential to homeland security.
    Even though the threat environment is constantly evolving, the 
Trump administration's budget request for fiscal year 2019 is woefully 
inadequate to the point of undermining TSA's ability to carry out its 
mission on behalf of the American people.
    First, it fails to build efforts to address morale challenges 
within TSA's front-line security workforce. While a slight improvement 
upon last year, TSA still ranks 336 out of 339 agency subcomponents in 
best places to work.
    I think we can both agree that TSA must do better.
    Unlike employees at most Federal agencies, TSA officers do not 
receive regularly-scheduled salary increases, though, Mr. 
Administrator, you have the authority to grant such increases.
    Year after year, TSA has failed to prioritize requesting 
significant funding for salary increases or longevity pay, leading to 
unacceptable attrition rates.
    I was greatly disappointed to see that the administration's request 
does not significantly raise pay for the hard-working men and women of 
TSA.
    To make matters worse, TSOs are still denied the same rights that 
FAA and other Federal employees are granted, and still lack access to a 
fair disciplinary appeals process.
    I was also troubled to see that this administration is seeking to 
eliminate the VIPR program. This program is arguably TSA's most visible 
and mobile resource for surface transportation security.
    Its elimination would worsen the effects of drastic cuts to the 
Transit Security Grant Program envisioned in President Trump's budget 
proposal.
    We simply must provide more resources to secure surface 
transportation given recent attacks and current threats.
    This budget also eliminates the Law Enforcement Officer (LEO) 
Reimbursement program, which supports placing uniformed officers near 
screening checkpoints in over 300 airports, and it shirks TSA's 
responsibility to protect exit lanes.
    With little to no consultation, the administration's proposal seeks 
to shift this burden onto local jurisdictions and airports that are not 
likely to have resources necessary to maintain a law enforcement 
presence in public areas of transportation systems.
    I was, however, pleased to see that the recently-passed omnibus for 
the remainder of fiscal year 2018 included funding to maintain 31 VIPR 
teams and the LEO reimbursement program, and to support exit lane 
screening.
    The funding of these essential transportation security programs in 
the omnibus go even further to show how unrealistic this proposed 
budget is.
    Given the steady increase in threats against our transportation 
systems, the administration should be bolstering Federal support for 
such programs, not eliminating them.
    Instead, President Trump wants to increase the diversion of a large 
segment of fees collected for aviation security to his proposed $18 
billion border wall slush fund.
    On an annual basis, over a billion dollars is diverted from TSA 
security operations to the General Fund.
    I know that you are aware this has been a long-standing concern, 
not only for me but for many of my colleagues in Congress.
    These fees need to be spent how the American people expect them to 
be spent--to secure transportation systems.

    Mr. Katko. Thank you again, Admiral Pekoske. I keep calling 
you Mr. Pekoske. You should be admiral, I believe. We 
appreciate you being here today, and I now recognize myself for 
5 minutes of questions.
    To no one's surprise, I am going to ask you some questions 
about PreCheck and about the procurement process with respect 
to the CT machines, which is the next-generation scanning. The 
budget does allocate some funding for that, and it is certainly 
an increase over past years. I remain concerned about the lack 
of speed with which some of these systems are being 
implemented, particularly given the fact that these very 
machines, Mrs. Watson Coleman, myself, and many others saw with 
their own eyes, on the front lines already being implemented in 
Europe.
    So if you could just talk for a second about the level of 
application of the machines that will go on-line this year, if 
any. I know there is going to be testing. If there is not going 
to be any going on-line this year, when they are going to be 
going on-line and to what extent they are going to be going on-
line, and what else we can do to help you with that.
    Mr. Pekoske. Yes, sir. This year, in fiscal 2018, so 
between now and the end of the September of this year, we will 
have 36 systems deployed. The majority of them will be deployed 
at airports. The purpose of that deployment is to operationally 
test the machines, to make sure that they can operate as they 
are designed. It also gives us an opportunity to train our work 
force in this new technology.
    I would expect that if that testing goes well--and based on 
everything that I know today, I expect it to--that we will have 
operational use of those machines once that testing is 
complete. So we will already have 35 machines installed based 
on fiscal 2018 funding. Then, as you know, sir, we have a 
fiscal 2019 request that will fund 145 more machines.
    What I would also add to that, Mr. Chairman, is that I am 
moving as fast as I can, irrespective of what the budget levels 
are. My commitment to you, my commitment to the administration 
is to deploy this technology as quickly as we can. So the 
budget number doesn't meter the speed at which we are 
attempting to deploy this technology. We are working very hard 
to do that.
    I have met personally with all but one of the five vendors 
that have expressed an interest in supporting us in this way, 
and I meet with that last vendor tomorrow to basically express 
my concern that we do this rapidly in a smart way, and also to 
proactively seek their input on ways from their perspective 
that we could do this better and deploy it better.
    Mr. Katko. OK. I appreciate that. But a question I have is, 
this technology is already being used on the front lines. One 
of the things we have pushed in the past and in separate 
legislation, I believe, is to have third-party testing become 
more of a tool for the TSA and the TSA industries that provide 
the technologies.
    We already know that these things are being used in Europe. 
We already know that they are being successfully implemented in 
Europe. So why--out of curiosity, why would we have to go 
through all this extra testing? Is that just--are these 
internal rules at TSA? Or what is it that you have to test that 
has not already been tested on the front lines?
    Mr. Pekoske. Well, sir, we have been in very close contact 
with folks at Schiphol Airport, at London Heathrow Airport, 
where they are testing these machines now. We exchange data 
back and forth with both of those airports so that we can 
together learn how to best apply these systems and where we can 
further develop the technology with software improvements.
    With respect to third-party testing, I am a huge advocate 
of covert testing, red team testing, to make sure that the 
system, when you don't expect to be tested, is actually working 
as advertised. So we will continue to do that. In fact, one of 
the things that I am looking to do inside TSA is to expand that 
testing element, because it has provided us such valuable 
insight. It allows us to change our processes and to look for 
new technology solutions.
    Mr. Katko. Thank you. As you know, we have said this in the 
past and it bears out repeating now, the bad guys are making 
advances at a much faster pace than we are getting our 
technologies to the front lines. So I implore you and everyone 
at TSA to work as quickly and as fast as you can with your 
respective vendors to get this stuff done.
    We are also going to introduce a bill that helps you expand 
the TSIF's capability, so these things can get through the 
process quicker. That is very, very important to us.
    Briefly, I want to just reiterate my concern about 
PreCheck. I don't know what, if there is any provisions in the 
budget to address this concern, but PreCheck should be for 
PreCheck. Mr. Thompson I know has expressed concerns about this 
in the past, as has Mrs. Watson Coleman, myself, and Chairman 
McCaul and others, that when someone goes through a PreCheck 
line under any circumstance that is not being fully vetted and 
is not part of the PreCheck program, that is a mistake, that is 
a security gap, and that shouldn't happen.
    I would venture to guess that is part of the reason why 
PreCheck isn't expanding at the rate upon which we want it to. 
So just briefly, can you tell me, is there any provisions in 
this budget to address those concerns?
    Mr. Pekoske. Sir, there are no provisions in the budget, 
but I really don't need a budget provision to address the 
concerns that you have expressed. In fact, we are already 
moving in that direction, and we will gradually get to the 
point in the not-too-distant future where only people with 
PreCheck on their boarding pass are in PreCheck lanes.
    Then there is an additional step to ensure that only 
PreCheck registrants are in PreCheck lanes. So I would be happy 
to get you a time line for how we intend to advance that, but 
it will be aggressive.
    Mr. Katko. I would like to see that time line, and I 
appreciate that. Again, just because they say PreCheck on the 
boarding pass doesn't mean they are in the PreCheck program. So 
we want that stopped, as well.
    Mr. Pekoske. Yes, sir.
    Mr. Katko. Thank you. The Chair now recognizes Mr. Thompson 
for 5 minutes of questioning.
    Mr. Thompson. Thank you, Mr. Chair. Good to see you again, 
Mr. Administrator. Are you in support of this budget you are 
here defending?
    Mr. Pekoske. Yes, sir, I support the President's request.
    Mr. Thompson. OK. So you support getting rid of the VIPR 
teams?
    Mr. Pekoske. Sir, within the available funding for TSA, we 
had to make some very difficult tradeoffs. I am a strong 
supporter of the VIPR teams, but we just can't afford to 
continue to provide that level of support, additionally knowing 
that State and local governments also have capabilities similar 
to what the VIPR teams provide. But that in no way diminishes, 
in my view, the value of the VIPR teams or the work that they 
have performed.
    Mr. Thompson. So are--you support them or you want to get 
rid of them?
    Mr. Pekoske. I am supportive of the President's request 
that necessarily based on funding limitations we would 
eliminate the VIPR teams and turn that responsibility with that 
capability gap to State and local governments, sir.
    Mr. Thompson. So do you support workers having the same--
your workers having the same rights as other fellow employees?
    Mr. Pekoske. Sir, the rights TSA workers having within the 
Aviation Transportation Security Act are substantial. I think 
that if you looked at my actions since I have been the 
administrator, I have done a lot of things to ensure that our 
workers' rights are well-protected and well-considered.
    I am constantly looking at ways that we can improve job 
satisfaction and morale within TSA. I think we have made some 
good progress in that regard.
    Mr. Thompson. So if I said TSA officers don't receive 
regular scheduled salary increases, would I be correct?
    Mr. Pekoske. Not entirely, sir. The Aviation Transportation 
Security Act allows me to pay at any time that I want to pay at 
what level that I want to pay. The issue really is how much 
money do you have within your budget to be able to pay your 
work force?
    Mr. Thompson. So do you do it? Or you don't do it?
    Mr. Pekoske. We do, do it, yes, sir. We give our workers a 
pay raise every year. Unlike the general schedule, which has 
longevity increases over a set period of time, I have the 
authority within TSA to provide longevity increases every year 
if I choose to do that.
    The issue is not the authority to do it. It is the ability 
with respect to funding to pay workers.
    Mr. Thompson. So do you do longevity pay?
    Mr. Pekoske. We don't do longevity pay. We do annual pay 
increases.
    Mr. Thompson. So the record will reflect that annual 
increases are the standard procedure?
    Mr. Pekoske. Yes, sir, for high-performing employees. Not 
all employees get--the vast majority do, but not all employees 
do, because we have a pay-for-performance system.
    Mr. Thompson. Well, if you would provide in writing, I 
think, to the committee how employees receive regular scheduled 
pay increases----
    Mr. Pekoske. Yes, sir, will do.
    Mr. Thompson. So do employees have access to fair 
disciplinary appeal process?
    Mr. Pekoske. Yes, sir, they do. There is a grievance 
process within TSA. It is the National Resolution Center. That 
process in my view is working very well. In fact, we just 
compared National Resolution Center processes to the Merit 
Systems Protection Board in terms of the end results of whether 
they accepted a grievance or not. Our comparison is on par with 
in general for a large population, on par with what the MSPB 
does.
    Additionally, the NRC, an internal grievance process within 
TSA, processes those applications quite a bit faster.
    Mr. Thompson. So if people get fair hearings, if they are 
getting increases, if they are getting longevity pay, why is 
morale so bad among your agency?
    Mr. Pekoske. Well, because the overall level, sir--they get 
the annual increases, but the annual increases may not be at 
the same level in terms of absolute dollar or a percentage of 
pay that they might get in a different system. That is not an 
authorities issue; it is a dollars issue.
    Mr. Thompson. Do you have the authority to fix it?
    Mr. Pekoske. I have the authority to pay it if I had the 
money to pay.
    Mr. Thompson. So you support the President's budget, but 
you don't have the money to pay your employees.
    Mr. Pekoske. That is right. Because within the President's 
budget, sir, I have a certain amount of money, $7.7 billion, 
for operations.
    Mr. Thompson. So you do understand----
    Mr. Pekoske. I do.
    Mr. Thompson [continuing]. That has a direct correlation to 
morale.
    Mr. Pekoske. I do, sir. In fact, I think the key driver for 
the morale numbers that the Ranking Member cited in her opening 
statement are due to pay. But that pay is at the lower pay 
bands, because we have a banded system for pay. That pay is 
most acute at the lower pay bands.
    Mr. Thompson. You support the pay band?
    Mr. Pekoske. I do.
    Mr. Thompson. Rather than paying your Government employees 
like we pay all other Government employees?
    Mr. Pekoske. Well, sir, in my mind, they are two different 
things. The pay bands, as a way to manage a pay for performance 
system, that provides security is a very good way to do it. 
Whether or not you have the money to pay all that you would 
desire to pay is an entirely different question.
    Mr. Thompson. Why would you want a system of paying your 
employees different from all other fellow employees?
    Mr. Pekoske. Because I would like to recognize performance. 
If somebody performs well, I would like to be able to quickly 
recognize that performance with pay.
    Mr. Thompson. Thank you, Mr. Chair.
    Mr. Katko. Thank you, Mr. Chairman. The Chair now 
recognizes the Ranking Member, Mrs. Watson Coleman, for 5 
minutes of questions.
    Mrs. Watson Coleman. Thank you, Mr. Chairman. Good day to 
you, Mr. Administrator. I have to tell you that I am a little 
disturbed here about some of what I think are--is an about-face 
on what is important and what represents security at our 
airports and other places.
    You said in your opening statement this budget supports our 
highest priority funding needs and allows TSA to continue its 
critical mission of protecting America's transportation system, 
yet when we review the budget, we see that there is a decrease 
in local and law enforcement support, there is an elimination 
of VIPR, which is something that up until this point you had 
indicated was a very important component to security either at 
airports or at surface transportation facilities. It diminishes 
significantly surface grants, sometimes the only grants that 
are available to transportation systems, land transportation 
systems. It increases the fees, but there is no guarantee that 
TSA is going to get more of that money. There is no increase in 
salaries and a modest increase in the number of positions and 
inadequate funding of the CTs based upon prior conversations, 
Mr. Administrator.
    So are you suggesting that the border is more important 
than these issues, these security measures, that we supported 
for purposes of securing people flying, riding, walking, 
whatever? I am just really confused here.
    Mr. Pekoske. Yes, ma'am. Well, I would suggest all are very 
important. We don't have unlimited funds in the Federal 
Government. We have to make some very difficult choices.
    Mrs. Watson Coleman. So do you think that diversion of the 
money to build a border wall is more important than putting 
adequate money in these 7 or 8 or 9 or 10 items that are 
woefully either underrepresented in this budget or eliminated 
entirely, sir?
    Mr. Pekoske. Well, my job is to advocate strongly for the 
Transportation Security Administration budget. I do that in the 
process. Then others with a broader portfolio and a broader 
view make decisions as to which part of the overall DHS 
enterprise get different levels of funding.
    Mrs. Watson Coleman. You know, Mr. Administrator, I had a 
lot of hope and expectations of your being able to do that. But 
today, it concerns me that you are a team member in a team that 
I think is taking this country in the wrong direction. It is 
kind-of disappointing, actually. So I just need to put that on 
the record.
    At your last appearance before the subcommittee, you agreed 
to provide us with information on political appointees at TSA 
who have recused themselves from working on certain issues 
under your leadership and during the prior administration. I 
thank you for providing that information.
    The data provided show that between 2012 and 2017 there 
were seven political appointments at TSA with relationships 
with 27 organizations that could trigger recusals. In contrast, 
in just the year or so since this current President took 
office, 9 individuals who collectively could have conflicts 
associated with 70 organizations have cycled through TSA to as 
political appointees.
    Further, since 2015, the number of political appointee 
positions at TSA has doubled from--4 to 8? Yes, 4 to 8. So, 
sir, let me ask you some--let me say that from what I have seen 
on this committee and my work on the Oversight Committee, this 
President's policy of hiring lobbyists into the Federal 
Government and a penchant for Cabinet Secretaries who have 
dubious relationships with ethics and physical responsibility, 
as well as representing whether or not they are even eligible 
for the positions they hold--present company excepted--
certainly do not reflect a desire to drain the swamp.
    As such, I want to ask you: Why did you create new 
political positions within TSA, an agency who needs to be 
apolitical to protect transportation systems regardless of who 
is in the White House? What are the responsibilities of these 
political appointees within TSA? How is TSA navigating the 
extensive recusal issues associated with so many of these 
people in key positions?
    Mr. Pekoske. Yes, ma'am. We have 9 political appointees in 
TSA, work force of 60,000-plus people. So on a percentage 
basis, that is a very, very small percentage. You are right, 
ma'am, that there are more political appointees in TSA than 
there were a year ago. All of the new adds on the political 
appointee side are in my office as counselors to me. I brought 
those people in who are all outstanding individuals, brought 
them in to advise me and to assist me in the leadership of TSA.
    With respect to recusals, I am recused from some aspects of 
my job, and those recusals, in my view, serve a very useful 
purpose, to make sure that there are no conflicts of interest 
and that we are fair and above-board. With the recusals, there 
is a very deliberate process to allow decisions to continue to 
be made by other officials within the agency for a period of 
time.
    The final thing I would say, ma'am, is that recusals don't 
last forever. My recusal--I can speak for myself--my recusals 
last for 2 years. So for 2 years, there is another process that 
we put in place that allows decisions on those topics to be 
made by somebody else, not me. I am shielded from that 
information so that there is no undue influence.
    I actually think that is a very good process.
    Mrs. Watson Coleman. Yield back.
    Mr. Katko. Thank you, Mrs. Watson Coleman. The Chair now 
recognizes the gentleman from Louisiana, Mr. Higgins, for 5 
minutes of question.
    Mr. Higgins. Thank you, Mr. Chairman. Admiral Pekoske, 
thank you for your service, sir, to our Nation, the Nation that 
we love. Thank you for your continued service. Are you a 
recipient of the Distinguished Service Medal during your time 
in the Coast Guard?
    Mr. Pekoske. Yes, sir, I am.
    Mr. Higgins. Congratulations, sir, and thank you for your 
service. The Legion of Merit?
    Mr. Pekoske. Yes, sir.
    Mr. Higgins. Congratulations, and thank you for your 
service. During your time in the Coast Guard, the teams that 
you ran, was the morale high?
    Mr. Pekoske. Very high. Yes, sir.
    Mr. Higgins. Their service to their country and the Coast 
Guard called for incredible training at jobs that had 
equivalent jobs in the civilian world. Is that correct?
    Mr. Pekoske. That is correct.
    Mr. Higgins. Their pay in the Coast Guard, was it 
equivalent to their service in the civilian world, in the same 
job?
    Mr. Pekoske. Not by a long shot.
    Mr. Higgins. Was their morale high?
    Mr. Pekoske. Morale was high.
    Mr. Higgins. Thank you. Let us move on. Much of our focus 
today is on issues that the public normally associates with 
TSA, such as airport security. But I would like to talk about 
pipeline security.
    Currently in Louisiana, especially in my district, we are 
experiencing a drastic and much welcome increase in private 
investment into our energy industry, much of which has 
manifested itself in the form of new liquefied natural gas 
facilities. These new facilities have led to the construction 
and proposed construction of new pipelines in the area, 
hundreds and hundreds of miles of pipeline.
    Your agency has security responsibilities for the 2.6 
million miles of natural gas and oil pipelines in our Nation. 
With the current administration's focus on regaining American 
energy dominance, this number is likely to grow. These 
pipelines are subject to threat. For example, a new pipeline 
endeavor in my district called the Bayou Bridge has been met 
with large resistance from environmental groups, mostly from 
outside of my State. These activists have gone beyond staged 
protests and have at times escalated their activities toward 
vandalism and attempts to sabotage or delay the project, which 
they have. In one instance, as reported by the sheriff's 
office, the protestors caused over $50,000 in damage to the 
pipeline's construction site.
    My question to you is: What is TSA's role in promoting 
pipeline security, especially for new projects? How can the 
agency better track and respond to evolving threats that may 
target pipelines?
    Mr. Pekoske. Sir, we have a very critical role in providing 
for pipeline security by working very closely with the pipeline 
industry in sharing intelligence information with them and 
sharing best practices across companies where appropriate. 
Additionally, we just published some pipeline security 
guidelines, went out last month, that was a collaborative 
effort between TSA and the pipeline industry, all the companies 
that participate in that industry.
    It is an excellent document. I would be happy to provide 
you a copy of it, sir. But I find that voluntary guidelines in 
this regard actually get us further toward a good security 
solution than perhaps regulations would.
    Mr. Higgins. What is the level of coordination--and thank 
you for your answer, that was very thorough--what is the level 
of coordination with local law enforcement to be force 
multipliers for pipeline security across the country?
    Mr. Pekoske. Sir, whenever we do training exercises, we 
always involve local law enforcement, because that is a key 
opportunity for all of us to coordinate and to get to know each 
other much better.
    Mr. Higgins. Does that training take place on a regular 
basis?
    Mr. Pekoske. It does, sir.
    Mr. Higgins. Your current budget, does that impact your 
training?
    Mr. Pekoske. Our training in the fiscal 2019 budget is the 
same as it was in fiscal 2018.
    Mr. Higgins. So you can continue the level of training that 
has been established?
    Mr. Pekoske. Yes, sir.
    Mr. Higgins. You find that to be effective?
    Mr. Pekoske. I find that to be effective, and I believe the 
industry does, as well.
    Mr. Higgins. Do you have a spirit within the TSA as the 
administrator with your military background, sir, to be able to 
do more with less?
    Mr. Pekoske. We do.
    Mr. Higgins. I appreciate that spirit, and I appreciate 
your leadership and your attitude here today. We certainly 
recognize that the role of TSA is crucial to the safety of our 
Nation and the people that we serve. We also recognize that the 
stability of our Nation is dependent upon a fiscal 
responsibility that should be borne in this city where it seems 
to be a very foreign concept.
    So thank you for your considerate responses. I thank you 
for your leadership, sir. Mr. Chairman, I yield the balance of 
my time.
    Mr. Katko. Thank you, Mr. Higgins. The Chair now recognizes 
the gentleman from Massachusetts, Mr. Keating, for 5 minutes of 
questioning.
    Mr. Keating. Thank you, Mr. Chairman. Administrator 
Pekoske, thank you for your service.
    In January before this committee you testified that you 
would like 300 CT scanners, CT machines for this year. Is that 
correct?
    Mr. Pekoske. Yes, sir.
    Mr. Keating. So this budget is asking for 145 CT scanners. 
So my point in part is this, that indeed, since you requested 
it, it is feasible that you could use those and implement 
those. So this is purely a budgetary decision, not one of 
implementation, not one of constraints otherwise. Is that 
correct?
    Mr. Pekoske. Sir, I don't feel any constraints with respect 
to the budget and how fast I implement the CT acquisition.
    Mr. Keating. Well, sir, you said you wanted 300 just last 
January. Now you are coming in for 145.
    Mr. Pekoske. Yes, sir, but the 145 number or the 300 
number, I am still going to move as fast as I can to begin to 
implement this system.
    Mr. Keating. I am having trouble understanding. You wanted 
300. So you assumed you could use them. We know we need them. 
But it is 145?
    Mr. Pekoske. Yes, sir. So when I made--what may happen is I 
may reach a point where I can deploy all 145 earlier in the 
fiscal year than I thought, and at that point, we reconsider 
the funding level, and I go back and talk within the 
administration.
    Mr. Keating. So if you could, for this committee and myself 
if you could, show us where your initial thought was. If you 
can come back and say this is where I thought I was and this is 
how I thought I could do 300, and if you could, then say these 
are the constraints I have seen where I can only feasibly do 
145, and at the same time, I think the testing and the actual 
implementation that is being done in other countries, you can't 
conceivably think that taking advantage of that testing in 
place couldn't expedite the process more?
    Could you conceivably--look, let's say there are no 
resources that are the problem. Could you conceivably come in 
with a program--let's assume there was a disaster, let's assume 
there was an attack, let's assume that we find out reviewing it 
the CT scanners would have prevented that from occurring, and 
you were tasked with saying we have to get these in place 
immediately, no constraints, is that possible that you could do 
that?
    Mr. Pekoske. It is possible. They wouldn't achieve the 
level of detection that we desire, but it is possible to do, 
sir. With respect to our international partners who are 
deploying CT, we have a very robust exchange of information 
with them. So as we learn and they learn, we share information 
back and forth.
    Mr. Keating. Would it indeed be something that you would be 
willing to share with the committee, though, how this could 
possibly be done, if there were no constraints, or how you 
could look beyond the box and say we are doing this? Because I 
would assume if we were attacked and this happened, and our 
oversight taught us that this could have been prevented, that 
we would be acting differently. As a matter of fact, I know we 
would be acting differently.
    So what I want to do is, you can only deal with what you 
have for resources and current constraints. If you could, share 
with us what could be done under those circumstances, what you 
could think conceivably be done if you were tasked with that. 
We know it is a hypothetical. But our job is to look at the 
hypotheticals and say, how can we improve things in the future? 
This is one area I think that--I think you could a little help 
from us on. We can't tell you what to do, but we can give you 
the tools to do it. We want to do it.
    This is a priority. I can't imagine we would be acting this 
way--and if we didn't make the request I just did, and we 
didn't pursue this, we would be complicit, I think, as a 
committee in not doing our duty to try and make people safe.
    So if you could, a couple of other things that have been 
mentioned that are important that really, I think, up against 
Congress and our history, recent history, will tell us there 
are some funding gaps here. The budget has come in eliminating, 
you know, the LEO funding and exit lane funding, and we have a 
great deal of discrepancies from one airport to another in the 
way they function and how secure some of those airports would 
be, some are under authorities, municipalities, God knows what.
    But you have got cuts there that Congress didn't go along 
with, so there is potentially a gap there. There is another 
funding gap that is going to occur, too, dealing with an 
increase of the tax that is put on passengers. That is being 
increased from $5.60 one way to $6.60 one way. You know, that 
money--and there are Members of the committee here, Ranking 
Member leading this, to try and take that money back that is 
there for passenger fees that has been diverted away and put 
that right back to airport safety, $1.25 billion. Now, if we 
have that money, we wouldn't be having to increase that. If we 
are increasing it and the money is being diverted, how do we 
know that is going to get into safety in the last analysis, to 
funding areas?
    My final comment is this. It is one of priorities. It has 
been addressed, but I am going to continue to address it. How 
many terrorist attacks have come over the Mexican border in the 
last 5 years?
    Mr. Pekoske. With respect to surface transportation or 
aviation----
    Mr. Keating. No, just generally. Just general knowledge. 
Not under TSA.
    Mr. Pekoske. To the best of my knowledge, none.
    Mr. Keating. None. That is the correct answer. Yet we have 
had airport attacks over the last 5 years. So diverting money 
to the border, when money is a constraint and the budget cuts 
the local law enforcement, it cuts the exit lane there for 
TSA's responsibility, which I think it is TSA's responsibility 
to make sure people are honoring these secure areas, where it 
is taking away the canines and VIPR teams that are there, that 
is where we have had attacks.
    Yet that money that we find a multiplier effect perhaps of 
25 for a border wall where there has been no attacks, and with 
this Congress just recently put $1.6 billion to strengthen our 
border security, and it is being potentially used for National 
Guardsmen who can't even arm themselves.
    So my question to you is, not in your capacity, but 
otherwise, does that make any sense to you, as an American 
citizen, not as an administrator?
    Mr. Pekoske. Sir, my focus is on transportation security. 
My job is to advocate as strongly as I can for transportation 
security. I have done that. The President's budget provides an 
adequate level of funding to provide for continued security in 
our transportation system.
    I would just note that we have been very successful at that 
over time. We have a very robust system in place. The 
reductions that you see in the budget are really a reflection 
of, hey, does capacity exist somewhere else that perhaps the 
Federal Government no longer needs to spend funds to do this?--
and can direct them to projects like the computed tomography.
    You know, everything in the budget supports each other. So 
if, for example, the VIPR teams remained in the budget or if, 
for example, law enforcement officer reimbursement remains in 
the budget, I might have a lower number for CT, just because it 
is not an--you know, $7.7 billion is my limit with that budget 
envelope.
    Mr. Keating. Well----
    Mr. Katko. Thank you, Mr. Keating.
    Mr. Keating [continuing]. My limit is an American fatality, 
a person that is injured or a person that is killed in these 
kind of attacks. There is enough money to put it elsewhere, 
where it does absolutely no good, where we are putting National 
Guardsmen at the border that can't even use those arms----
    Mr. Katko. Mr. Keating, your time is up.
    Mr. Keating. Except in self-defense. I yield back 
reluctantly, Mr. Chairman.
    Mr. Katko. Thank you very much. The Chair now recognizes 
the gentleman from Alabama, Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. Admiral, thank you for 
being here and thank you for your service to our country.
    Admiral, as administrator of the Transportation Security 
Administration, do you have responsibility for securing the 
Southwest Border of the United States of America?
    Mr. Pekoske. I do not.
    Mr. Rogers. As administrator of the Transportation Security 
Administration, do you have the authority to secure the 
Southwestern Border of the United States if you wanted to do 
it?
    Mr. Pekoske. No, sir.
    Mr. Rogers. So other than your opinion as a private 
American citizen that all 350 million of us, or whatever there 
are, have, do you think anybody in the leadership of the 
Department of Homeland Security cares what your opinion is 
about whether or not resources should be put against securing 
the Southwestern Border of the United States?
    Mr. Pekoske. No, sir. They look for my opinion on 
transportation security.
    Mr. Rogers. Yes, sir, and that is what we have you here 
for, and I appreciate you being here. As you can tell from the 
questions and other than that area, this committee remains 
focused on CT scans being increased at the checkpoints, as well 
as explosive detection canines. Now, you made the statement to 
Mr. Keating just now that--and I agree with him--it is hard to 
explain that delta between needing 300 and asking for 145--my 
guess is OMB told you 145 was the money they had, the money 
that you could pursue.
    However, you made the statement to him that if at some 
point during the year you felt like you could push those 145 
out and needed more, you would revisit it. You also made the 
statement to the full committee--the subcommittee Chairman, ``I 
am moving as fast as I can. The budget number doesn't meter the 
pace at which I am moving''.
    So my question is, if as you told Mr. Keating, if you get 
to a point that you pushed all 145 out, would you be willing to 
pursue a reprogramming of monies to allow you to get more out 
to move toward that 300 goal?
    Mr. Pekoske. Yes, sir, I would. In fact, that has been my 
position all along, is I have a certain amount of money, I have 
all the money I need to do the testing I need to do to be able 
to certify these systems and get them to a point where we want 
to have them with respect to detectability to deploy through 
the checkpoint.
    So the funding that we have in the budget does not meter 
that down in one way at all. If we reach the point where--like 
I said to Mr. Keating--if we are deploying all 145 units in 
April of next year, then, yes, I would go back through the 
Secretary and say I am ready and I am capable and I have proven 
that I have proven technology that I can integrate into a 
checkpoint system and improve security, let's look at some 
reprogramming options.
    Mr. Rogers. Well, and as you know, Congress would have to 
concur with that. But it is obvious from this committee's 
behavior and recent hearings that would be approved if there 
was a reprogramming request. So it is my hope that you do try 
to get beyond that 145 and use that reprogramming avenue.
    Similarly, as you might be aware, I am concerned about the 
canine number, as well. I have reviewed the President's budget 
and frankly was shocked when I--because I know we have had 
conversations privately, as well as in the committee, you share 
this subcommittee's opinion about the value of explosive 
detection canines and the need for a much greater number of 
them in our airports.
    But then when I see the budget and I see there is $500,000 
increase between fiscal year 2018 and fiscal year 2019, that 
does not reflect value. I mean, don't get me wrong, $500,000 is 
a lot of money to an individual, but in the $7 billion program, 
it is not a big number. Why is it so low? Because $500,000 will 
not get you a large expanse of the explosive detection canine 
program.
    Mr. Pekoske. No, sir, what we have done is we have 
increased the capacity of our canine training center by 50 
canines per year. So that is a fairly substantial increase. The 
idea is to position ourselves in the out years to be able to 
grow the program. My challenge at this point in time, right 
here in April 2018, is getting up to my allocated number.
    My allocated number is 379 passenger screening canines. We 
aren't there yet. So I am challenged to get to that number this 
year. I am not sure I can grow the program substantially in 
2019, given some constraints within the training system which 
we are examining and trying to get to a point where we can, but 
to your main point, sir, is I am a strong supporter, as I know 
just about every Member on this committee is, of canine 
capability. That is my goal, is to increase that program.
    Mr. Rogers. Yes, I recently sent you a letter about some 
concerns over third-party canine cargo programs also doing the 
testing. Is that a thing I should be concerned about?
    Mr. Pekoske. No, sir. In fact, I replied--sent you back a 
response yesterday.
    Mr. Rogers. Could you tell that committee what that 
response said?
    Mr. Pekoske. The third-party canine cargo program is a very 
valuable program. We have had 2 industry days already. We have 
a third one coming up at the canine training center next week. 
We have valued greatly the input that the industry has provided 
us, and we are committed to ensuring that the program we roll 
out provides the right protections, for example, a company that 
is certified in canines can't provide canines. Because we want 
to make sure that it is completely above-board and that there 
is no conflict there.
    Additionally, sir, you asked questions about how do we 
check as to whether or not they are achieving the level of 
performance that we desire, and we have a program in place to 
regularly audit those canines, both from a records perspective 
and also from an on-scene perspective.
    Mr. Rogers. Thank you very much. Again, thank you for your 
service to our country.
    Mr. Katko. Thank you, Mr. Rogers. The Chair now recognizes 
the gentleman from Kansas, Mr. Estes, for 5 minutes of 
questioning.
    Mr. Estes. So as we look forward to the mission of how do 
we continue to process, how do we continue to provide the 
services--I know we have talked some about upgrading our 
technology--I was fortunate enough to look at some of the last 
departure airports in Europe and in the Middle East, and some 
of the technology they are using there.
    How can we make sure that we are providing the best support 
for you, as you are looking at the budget for next year, but 
also laying the foundation to be in a short time frame in the 
future to help make sure that we are providing that technology 
that helps you do the job that we expect you to do?
    Mr. Pekoske. Yes, sir, thank you. I would say the committee 
has done a fantastic job in supporting TSA since I have been 
the administrator. I know I can speak for my predecessor. He 
felt exactly the same way.
    Where you can continue to help us is as we look at the 
processes, I am committed to try to accelerate our process to, 
one, make decisions, and then once we make a decision, to 
deploy technology successfully. Because I do think it takes us 
way too long to do that.
    I may need some authorities to be able to move quicker 
through a system to be able to put that in place. The other 
thing that I am exploring very robustly, sir, is how can we 
work in public-private partnerships with industry? We have 
already done that pretty successfully with the automated 
screening lanes, those new lanes where five people can take 
their stuff out of their carry-on bags and put it in bins at 
the same time. Those lanes also have some significant security 
enhancements.
    We will have about 200 of those lanes in place across our 
system this year, and that is all funded by the industry. So 
what the industry has allowed us to do is to do developmental 
and operational testing, training and integration, where they 
have paid it and they have gifted the systems to us. So 
something like that, a public-private partnership where we 
might be able to allow the industry to support some of the 
acquisition process.
    Then when we get into a point where we say, yes, this is a 
system we want to buy, we can just go buy it. That should 
shorten the time lines quite a bit.
    Mr. Estes. I am glad to hear you are talking about looking 
for additional ways to help roll things up, help implement 
things. You know, you hear some stories--some are probably 
anecdotal, but others probably have real-world basis of how 
slow this whole process is, how much the gap is between where 
we would like to be and how fast we are getting there. So that 
is an opportunity to see, how do we move forward in that? How 
do we make sure that we use our budget resources the best way 
to make that happen?
    One other thing I would--just as a personal note, a 
personal comment, is I would like the opportunity at some point 
in time to go look at some of the automated lanes. I have 
anecdotally observed that process, but trying to understand how 
well that improves efficiency and how well that process works. 
So that would be interesting to me.
    Mr. Pekoske. Yes, sir, we welcome you to any one of our 
facilities that has the ASLs. We would be happy to show you the 
whole--from a passenger perspective why it is better and, 
really, from a security perspective why it is better, and then 
how we are integrating--we plan to integrate those lanes, that 
technology with the CT X-ray machine.
    Mr. Estes. All right. Mr. Chairman, I yield back.
    Mr. Katko. Thank you, Mr. Estes. The Chair now recognizes 
the gentleman from Pennsylvania, Mr. Fitzpatrick, for 5 minutes 
of questions.
    Mr. Fitzpatrick. Thank you, Mr. Chairman. Mr. Pekoske, 
thanks for being here. This is really very, very important 
stuff we are talking about here, obviously. I think everyone 
knows that.
    What I would like to do is just to make sure that I am 
clear and that this committee is clear on what is needed and 
what is being offered and what the gap is and how we get to 
filling that gap. So I want to focus first on the CT screening 
devices and move to canines.
    So the proposed budget offers--correct me if I am wrong--
$73 million for 145 CT screening devices.
    Mr. Pekoske. That is correct.
    Mr. Fitzpatrick. A full deployment, if we wanted to cover 
from top to bottom the airports, 450 or so in this country, 
would have required about 2,400. Is that right?
    Mr. Pekoske. That is correct.
    Mr. Fitzpatrick. At about $600,000 apiece?
    Mr. Pekoske. That is correct.
    Mr. Fitzpatrick. So we are looking at a total price tag of 
about $1.4 billion. As my colleague, Mr. Keating, had mentioned 
earlier and it has been discussed, there is about $1.3 billion 
currently collected in airline passenger fees that are 
earmarked specifically to the general fund for debt reduction. 
So that is one place we could go, right, to get this money.
    Second is on the canines. There are two types of canines, 
right, passenger screening and law enforcement?
    Mr. Pekoske. That is right.
    Mr. Fitzpatrick. Could you describe the difference between 
the two of those?
    Mr. Pekoske. Well, passenger screening canine is trained to 
walk through a series of passengers, detect a vapor, whether it 
is an explosive vapor or any other kind of vapor that we 
prohibit in the check lane, and then follow that vapor to that 
passenger, and then alert on that passenger. Then we have 
officers that--behavior detection trained individuals that help 
us take care of that passenger's issue as we go forward.
    Mr. Fitzpatrick. There is currently about 400 or so 
passenger screening, just under----
    Mr. Pekoske. We have an allocation for 379, sir, but as I 
said to Mr. Rogers, we don't yet have 379 on-board.
    Mr. Fitzpatrick. You don't.
    Mr. Pekoske. That is the gap we are trying to fill this 
year.
    Mr. Fitzpatrick. Back to the CT scanning devices, are there 
five or so, I understand, manufacturers of these devices? It 
could take several years to deploy?
    Mr. Pekoske. Yes, sir.
    Mr. Fitzpatrick. So even if we were able to obtain the 
funds, which I think we have to, because I can't think of a 
higher priority with all the tens of billions of dollars we 
spent in aviation security, this is the most important thing we 
can do. But as far as the--not only getting the funding, but 
also the deployment, is there a problem on the supply side with 
a number of producers of these machines being able to produce 
enough for our demand that we have right now?
    Mr. Pekoske. Well, the good news, sir, is that we have five 
vendors that are in the competition and participating robustly 
in the process that we have in place. I don't know how many 
vendors are going to be at the end, when we get to the end and 
we make a decision that we are going to purchase and certain 
vendors are qualified and certified by us to participate in 
that program.
    So, really, the volume that we can put in place depends on 
how many qualified vendors and then to some degree which 
vendors those are, because some vendors have more capacity than 
others, sir.
    Mr. Fitzpatrick. OK, I just want to implore this 
committee--I mean, I think we have spent a lot of time talking 
about it, but we have got to actually take action, because this 
is really, really important stuff. We need these screening 
devices in all 450-plus airports across this country. It is got 
to be a priority. I yield back.
    Mr. Katko. Thank you, Mr. Fitzpatrick. The Chair now 
recognizes the gentlewoman from Florida, Ms. Demings, for 5 
minutes of questioning.
    Mrs. Demings. Thank you so much, Mr. Chairman, and thank 
you, as well, to the Ranking Member of the full committee and 
to the Ranking Member of the subcommittee for allowing me to 
participate in this hearing today.
    Admiral, it is good to see you again. I want to thank you 
for TSA's rapid response to the Orlando International Airport's 
request for additional resources and personnel. OIA, like many 
other airports, as you know, has experienced unprecedented 
growth over the last decade and the work of our FSD, our region 
three director, the assistant administrator, as well as the men 
and women on the ground, I believe, demonstrates the shared 
commitment to passenger safety, National security, and enhanced 
customer service.
    So on behalf of the Orlando delegation, I want to thank you 
for TSA's commitment to our growing airport. But with the 
Federal airport partnership in mind, I would like to turn to 
reimbursement for airports that took early action to install 
inline baggage screening systems but have yet to be reimbursed.
    From the start, Congress established that the Federal 
Government was responsible for the costs of baggage screening 
equipment, and Orlando International Airport, with the support 
of the TSA, procured and installed cutting-edge in-line baggage 
screening equipment. Unfortunately, more than 12 years later, 
airports like OIA have yet to be reimbursed.
    In the fiscal year 2019 budget, the DHS budget 
justification states that reimbursements like those owed to OIA 
are dead last on the list of funding priorities. In February 
2018, 14 airports were told funds would not be available until 
at least 2027.
    To the relief of many, fiscal year 2018 omnibus provided a 
$50 million down payment for the $218 million owed to airports 
like Orlando. It is my understanding that the agency is to 
provide a time line and methodology for the distribution of the 
appropriated funds and a plan for the remaining $168 million 
owed by the end of this month.
    Admiral, is TSA on track to meet the deadline? Will 
subsequent budget requests reprioritize those reimbursements?
    Mr. Pekoske. Yes, ma'am, thank you very much for your 
comments, first off. Second, with respect to the EDS 
reimbursement, yes, $50 million in the omnibus appropriation, 
and we are ready I think next week or the week after to brief 
the committee on how we would propose to disburse those funds. 
The sum total is $218 million. If you just took $50 million for 
argument's sake and said I pay $50 million a year, when can 
this $218 million be paid off? It is between 4 and 5 years.
    Mrs. Demings. So between 4 and 5 years, not 2027 
necessarily?
    Mr. Pekoske. Well, if we continue with the $50 million. But 
as you know, ma'am, in the President's budget, there is not a 
$50 million request for fiscal 2019.
    Mrs. Demings. Admiral, could you talk a little bit about 
the--you know, I do believe that our most precious resource are 
the men and women on the job. Having commanded a police 
department, I understand how, yes, they are willing to do much 
more than they are ever paid to do. But a part of morale is 
making sure that we try our best to pay them what they are 
worth.
    Could you just talk a little bit about the men and women on 
the ground at the TSA who do the job every day, the front line 
in terms of our security, and talk a little bit more about some 
of the direct efforts that you are engaged in directly to 
understand what is going on with them and to help increase 
morale, or create an environment that increases their morale?
    Mr. Pekoske. Yes, thank you, ma'am. Thank you for the 
question. You know, as I said in my opening statement, we have 
a fantastic work force in TSA, 60,000-plus men and women that 
do a very difficult job under significant pressure, under a no-
fail system. They perform incredibly well, in my view.
    It has been my privilege since I have been the 
administrator to be with them a lot. I have traveled to many, 
many airports, many Federal air marshal services offices, and 
visited our vetting centers. The thing to think about with TSA 
is, you know, the image of TSA is the checkpoint, and that is 
where most American citizens encounter the Transportation 
Security Administration. But we have many, many layers of 
security.
    There are a lot of people that the traveling public 
wouldn't necessarily recognize as being in TSA because they are 
in airports, but they are not in the uniform. But they are 
ensuring compliance with the regulations we place on the 
airlines and at the airports. Additionally, we have a good 
international footprint, because we have very strong 
relationships with our international partners, and we are 
facing a global threat.
    From my perspective, one of the most important things I can 
do as a TSA administrator is when I make decisions on things, I 
make it from the standpoint of being in the shoes of the men 
and women who are on the front lines of the agency. That is 
what you did as a chief. It is what I did when I was a Coast 
Guard officer, is I always tried to place myself in the shoes 
of the person who is directly delivering the services the 
agency provides.
    So that is the perspective I have taken on everything that 
I have done. We have put together a career advancement program 
for our transportation security officers, the lion's share of 
our front-line work force, some 45,000 people. That career 
progression should be released very, very shortly. It is 
signature ready. It just--and I have already approved it. It is 
above me for approval.
    That will map out a career progression for our officers. It 
will show what training we will provide them and what pay gates 
they can go through as they advance throughout their careers.
    Additionally, as I have looked at the TSA organization, you 
know, I am looking for opportunities for--how can we 
organizationally provide more career-broadening opportunities 
for our work force? That is a key part of my focus. So I hope 
to leave this agency when my time is up as the administrator, 
which I hope is no time soon, because I really do enjoy this 
job, and I feel very rewarded by the opportunity to serve the 
men and women who serve in TSA, that our job satisfaction 
numbers are significantly increased.
    I would dearly love to pay our transportation security 
officers, in particular at the lower pay bands, more money. I 
just don't have the budget flexibility to do that at this point 
in time. But if I could find it, I will.
    Mrs. Demings. If you had--I am sorry, I am out of time----
    Mr. Katko. You are out of time. I am sorry, Ms. Demings.
    Mrs. Demings. OK, thank you very much.
    Mr. Katko. This concludes the first panel for today's 
hearings. Members are advised that we will take a short recess 
of 5 minutes or less and begin the second panel. Thank you.
    [Recess.]
    Mr. Katko. I would like to welcome our second panel for 
today's hearing. Our first witness is Mr. Kevin Burke, who is 
president and CEO of Airports Council International, North 
America. Mr. Burke joined ACINA as president and CEO in January 
2014 and has since focused on expanding the organization's 
reach and influence by amplifying the role of airports in 
everyday life, as well as unifying and advancing the industry.
    Prior to joining ACINA, he served for 13 years as president 
and CEO of the American Apparel and Footwear Association and 
has more than 30 years of experience in government relations. 
Mr. Burke is now recognized for 5 minutes for an opening 
statement. Now, I will remind both Mr. Burke and Mr. Cox that 
your full statements have been entered into the record.

  STATEMENT OF KEVIN M. BURKE, PRESIDENT, OFFICE OF SECURITY 
    OPERATIONS, AIRPORTS COUNCIL INTERNATIONAL NORTH AMERICA

    Mr. Burke. Thank you, Chairman Katko, Ranking Member Watson 
Coleman, and Members of the subcommittee. Thank you for the 
opportunity to provide the airport operators' perspective on--
--
    Mr. Katko. I am sorry, Mr. Burke. Is your speaker on?
    Mr. Burke. Yes, it is.
    Mr. Katko. OK.
    Mr. Burke. Can you hear me now? How is that? Is that 
better? Good, OK. Thank you for the opportunity to provide the 
airport operators' perspective on TSA's fiscal year 2018 budget 
request.
    Every day, airports across America operate in a dynamic 
threat environment that requires a variety of security measures 
to keep passengers, employees, and facilities safe. To mitigate 
these threats, airport partners with the TSA, Federal, State, 
and local law enforcement agencies, and their airline partners 
to develop a comprehensive, multi-layered, and risk-based 
aviation security system.
    ACINA airports appreciate the efforts of Administrator 
Pekoske and his team to coordinate more closely with industry. 
Also, Members of this committee have implemented measures to 
make TSA a more effective and more efficient organization. 
Consistent funding that keeps pace with continued growth in 
passenger traffic is essential ensure to TSA's long-term 
success. To that end, Mr. Chairman, ACINA offers the following 
budget priorities to make the airport environment safer and 
more secure.
    No. 1, Congress should provide funding for the number of 
transportation security officers and passenger screening 
canines necessary to effectively and efficiently screen 
passengers and baggage. Airports across the country report 
significantly longer TSA checkpoint wait lines due to the 
combined effects of insufficient TSA staffing, growing 
passenger traffic, and increased scrutiny of passengers and 
their carry-on luggage.
    Large groups of people waiting at passenger screening 
checkpoints create an unnecessary security vulnerability. 
Airports appreciate the efforts of Congress to provide TSA more 
resources for screening checkpoints, but TSA's own resources 
allocation model clearly demonstrates that security checkpoints 
around the country remain understaffed by several thousand 
TSOs.
    We have all seen that ourselves when TSA is routinely 
unable to open all of the screening lanes at many checkpoints, 
including PreCheck lanes. To help TSA keep pace with the 
growing volume and security demands, Congress should increase 
funding for the TSO work force and passenger screening canines.
    No. 2, Congress should ensure that TSA has the funds 
necessary to fulfill its obligations to reimburse airports 
under the law enforcement officer reimbursement program. Now, 
TSA created the LEO reimbursement program to partially 
reimburse airports for providing law enforcement officer 
staffing to support TSA's screening operations. Now, while many 
airports have entered in reimbursable agreements with TSA to 
assist the agency in meeting its statutory mandate, the 
reimbursement rate declined dramatically over the past decade, 
and now the administration has called for the wholesale 
elimination of what we consider to be a very essential program.
    As security threats at the airport continue to evolve and 
TSA imposes additional requirements on airport law enforcement 
officers, it is essential in our view for Congress to continue 
to provide TSA adequate funding for the LEO reimbursement 
program.
    No. 3, Congress should ensure that TSA continues to staff 
airport exit lanes. Airports appreciate the continued support 
of Congress in ensuring that TSA abides by the provision in the 
Bipartisan Budget Act of 2013 directing the agency to continue 
to monitor exit lanes. There are potential security issues and 
significant costs associated with an unfunded mandate for 
airport operators to provide staff to monitor these exit lanes 
as called for in this year's budget request.
    No. 4, Congress should provide funding for research, 
development, and deployment of new technology capable of 
detecting emerging threats and increasing efficiency. TSA needs 
to support programs like its innovation task force to deploy 
and maintain automated screening lanes, procure and install 
systems to monitor exit lanes, and accelerate the testing and 
procurement of CT technology at passenger checkpoints. 
Developing and installing next-generation technology will 
increase security. It will produce significant budget savings 
and enhance the traveler convenience and experience at 
airports.
    No. 5, Congress should ensure TSA has the funds necessary 
to replace outdated explosive detection systems and reimburse 
eligible airports for the installation of past systems. TSA 
needs funding to replace in-line checked baggage screening 
systems that have or are rapidly reaching the end of their 
useful lives. We also appreciate Congress providing funding in 
the 2018 omnibus for TSA to reimburse airports for past EDS 
deployments and we encourage Congress to continue to follow 
through on this commitment with additional funding.
    In addition to the budget requests recommendation I have 
just detailed, Mr. Chairman, I encourage the committee to 
consider the authorization recommendations included in my 
written testimony as it looks to craft additional aviation 
security legislation this year. Thank you for the opportunity 
to testify today, and I welcome any questions the committee 
might have. Thank you.
    [The prepared statement of Mr. Burke follows:]
                  Prepared Statement of Kevin M. Burke
                             April 12, 2018
    Good afternoon Chairman Katko, Ranking Member Watson Coleman, and 
Members of the subcommittee. Thank you for this opportunity to provide 
the airport operators' perspective on the Transportation Security 
Administration's (TSA) fiscal year 2019 budget request.
    As the president and CEO of Airports Council International--North 
America (ACI-NA), I am submitting this testimony on behalf of the 
local, regional, and State governing bodies that own and operate 
commercial airports throughout the United States and Canada. Our 
airport members enplane more than 95 percent of the domestic and 
virtually all the international airline passenger and cargo traffic in 
the two countries.
    ACI-NA and its members are steadfastly committed to ensuring that 
our Nation's aviation system remains safe, secure, and efficient for 
all users, while at the same time keeping it open for facilitating 
legitimate travel and trade for millions of passengers. Operating in a 
dynamic threat environment, airport operators coordinate closely with 
TSA on a variety of measures to provide for the security of their 
passengers, employees, and facilities. Airports have been in the past 
and remain today a prime target for those intent on inflicting harm. To 
mitigate this threat, airports partner with the TSA, Federal, State, 
and local law enforcement agencies, and our airline partners to develop 
and maintain a comprehensive, multi-layered, risk-based aviation 
security system.
    TSA faces the enormous challenge of screening millions of 
passengers and their baggage--a challenge that requires visionary 
leadership, innovation, a dedicated workforce, and sustained funding 
from Congress. Airports appreciate the efforts Administrator Pekoske 
and his team, the Transportation Security Officers (TSOs) on the front 
lines, and Members of this committee have put in place to make TSA a 
more effective and a more efficient organization, and one that does a 
better job coordinating with industry.
    Consistent funding that keeps pace with the continued growth in 
passenger traffic is essential to ensure TSA's success. As such ACI-NA 
strongly supports the TSA's responsibility for providing checkpoint 
screening, assisting local law enforcement, and deploying new 
technologies to make the airport environment safer and more secure, and 
offers the following recommended funding priorities in the coming year:
  <bullet> Congress should provide funding for the number of 
        Transportation Security Officers (TSOs) and Passenger Screening 
        Canines necessary to effectively and efficiently screen 
        passengers and baggage.--Airports across the country are 
        reporting significantly longer TSA checkpoint wait times due to 
        the combined effects of insufficient TSA staffing, growing 
        passenger traffic, and increased scrutiny of passengers and 
        their carry-on baggage. With passenger traffic increasing again 
        this year, airports are extremely concerned about the 
        vulnerability associated with large groups of passengers 
        waiting at TSA passenger screening checkpoints, as well as the 
        potential for misconnecting checked baggage and passengers who 
        miss their intended flights, especially during the busy summer 
        travel season. Due to existing staffing shortages, for 
        instance, TSA is routinely unable to open all the screening 
        lanes at many security checkpoints, including PreCheck lanes.
    Airports appreciate the past efforts of Congress to provide TSA 
        more resources at screening checkpoints after the aviation 
        industry faced multiple, well-publicized checkpoint meltdowns. 
        But TSA's own resource allocation model clearly demonstrates 
        that security checkpoints around the country remain 
        understaffed by several thousand TSOs. To help TSA keep pace 
        with growing security demands, as well as the increasing volume 
        of passengers and baggage, Congress should increase funding for 
        the TSO workforce and to increase the number of Passenger 
        Screening Canines. Visible Intermodal Prevention and Response 
        Teams also play an important role in helping to enhance 
        security in the public areas of airports.
  <bullet> Congress should ensure that TSA has the funds necessary to 
        fulfill its obligation to reimburse airports under the Law 
        Enforcement Officer (LEO) Reimbursement Program, rejecting the 
        administration's request to eliminate the program and shift the 
        full burden to airports.--TSA created the LEO Reimbursement 
        Program in order to partially reimburse airports for providing 
        law enforcement officer staffing at security checkpoints--as 
        required in Federal law--because the agency did not have the 
        funding to do so. Many airports have entered into reimbursable 
        agreements with TSA to provide qualified law enforcement 
        officers to support TSA screening operations. Not only has the 
        reimbursement rate declined dramatically over the past decade, 
        but the present administration has called for eliminating this 
        essential program. As security threats at the airport continue 
        to evolve--and TSA imposes additional requirements on airport 
        law enforcement officers--it is essential for Congress to 
        continue to provide TSA adequate funding to fully support the 
        LEO Reimbursement Program.
  <bullet> Congress should ensure that TSA continues to staff airport 
        exit lanes, rejecting the administration's request to eliminate 
        the program and shift the full burden to airports.--We 
        appreciate the continued support of Congress in ensuring that 
        TSA abides by the provision in the Bipartisan Budget Act of 
        2013, which specifically directs the agency to continue to 
        monitor exit lanes where it performed the function on December 
        1, 2013. Airports remain concerned about potential security 
        issues and the significant costs associated with the real 
        potential for a costly unfunded mandate for airport operators 
        to provide staff to monitor these exit lanes, as suggested in 
        this year's budget request. In addition, we support the efforts 
        of TSA to install appropriate monitoring technology where 
        feasible and appropriate, and will continue to work with this 
        committee to support TSA in deploying such technology.
  <bullet> Congress should provide funding for research, development, 
        and deployment of new technology.--ACI-NA supports enhancing 
        the security of the aviation system through research, 
        development, testing, and deployment of cutting-edge screening 
        technology capable of detecting new threats to aviation and 
        increasing efficiency. TSA needs additional funding and support 
        for its Innovation Task Force--to deploy and maintain automated 
        screening lanes, procure and install systems to monitor exit 
        lanes, and accelerate the procurement, testing, and deployment 
        of computed tomography (CT) at passenger checkpoints. Deploying 
        and installing ``next generation'' technology will increase 
        security, produce significant budget savings, and enhance 
        traveler convenience. We applaud TSA for leveraging industry 
        expertise as it revises its Capital Investment Plan.
  <bullet> Congress should ensure TSA has the funds necessary to 
        replace outdated explosive detection systems (EDS), and 
        continue to fulfill its obligation to reimburse eligible 
        airports for the installation of past EDS.--As many EDS have or 
        are rapidly reaching the end of their useful lives, TSA needs 
        funding to replace these systems. Absent necessary funding, TSA 
        will incur increasing costs to operate and maintain old systems 
        that routinely break down and adversely impact security and 
        airport operations. We appreciate Congress providing funding in 
        the 2018 Omnibus Appropriations Act for TSA to reimburse 
        airports for previously-incurred costs associated with the 
        construction and deployment of in-line checked baggage 
        screening systems. Since these airports diverted significant 
        amounts of money from other important aviation security 
        projects in the months after 9/11 so they could purchase and 
        install EDS systems, we encourage Congress to continue to 
        follow through on this commitment with additional funding, and 
        to prohibit TSA from redirecting any unused EDS funds to other 
        TSA programs until all eligible airports receive full 
        reimbursement.
    In addition to the budget-request recommendations listed above, I 
encourage the subcommittee to consider the following authorization 
recommendations as it looks to craft additional aviation-security 
legislation this year:
  <bullet> Congress must end the diversion of the 9/11 Passenger 
        Security Fee to subsidize other Federal programs.--The 9/11 
        passenger security fee was intended to fund civil aviation 
        security services, including the salary, benefits, and overtime 
        for TSOs, and the acquisition, operation, and maintenance of 
        screening technology. However, over a 10-year period, $12.6 
        billion of the user fee will be siphoned off to subsidize other 
        Federal programs. With chronically long lines and wait times at 
        TSA security checkpoints, the entire 9/11 passenger security 
        fee should be used to adequately fund the TSO staffing levels 
        necessary to effectively and efficiently screen passengers and 
        their baggage.
  <bullet> Congress should establish a grant program focused on airport 
        security.--In accordance with an Aviation Security Advisory 
        Committee (ASAC) recommendation, an airport security-focused 
        grant program at TSA would support the deployment of perimeter, 
        access control, automated screening lanes, and other security 
        technology at airports. Airport operators have limited funding 
        that must be prioritized across a multitude of safety, 
        security, and operational projects. While the DHS grant 
        programs have dispensed billions of dollars for systems and 
        technology to bolster State, Tribal, and local security, very 
        little, if any, has been allocated to airports. Moreover, 
        additional resources--through a long-overdue modernization of 
        the Passenger Facility Charge--are urgently needed to fund 
        needed infrastructure projects--such as checkpoint expansions--
        that will bolster security and passenger flows at their 
        facilities.
  <bullet> Congress should codify TSA's risk-based approach to aviation 
        security.--Risk-based security should be the cornerstone on 
        which new security initiatives are created. Effective risk-
        based decisions must consider intelligence, vulnerability, 
        existing airport security measures, operational impacts, and 
        costs when determining what measures may be necessary to 
        mitigate concerns. On occasion, operationally infeasible 
        security mandates have resulted from reactive responses to 
        preliminary or unconfirmed threat information. In consideration 
        of limited Government and industry resources, it is essential 
        that TSA fully embrace and incorporate risk-based security as a 
        core business practice when contemplating new policies and 
        evaluating new security requirements in terms of their ability 
        to mitigate threats. The process should be structured in such a 
        way that alternate measures, providing a commensurate level of 
        security, are considered.
  <bullet> Congress should require TSA to review and reform its process 
        for issuing Security Directives.--TSA should only use Security 
        Directives to respond to specific threats and emergency 
        situations, and, to the greatest extent possible, coordinate 
        with industry to ensure the requirements are operationally 
        feasible. Also, every Security Directive should include a 
        sunset date. Further, since there is no process to evaluate the 
        cumulative impact of multiple Security Directives that impose 
        duplicative, costly, and sometimes contradictory security 
        requirements, TSA should establish a formal process to review 
        and assess the cost of longstanding security requirements 
        imposed on airports.
  <bullet> Congress should enhance the Screening Partnership Program 
        (SPP).--In order to make SPP a more viable option for airports, 
        Congress should require TSA to transition to a privatized 
        screening workforce within 1 year of approving an airports' 
        application to participate in the program. In addition, SPP 
        contracts should include a metric so that authorized staffing 
        levels keep pace with increases in passenger traffic.
  <bullet> Congress should separate TSA Compliance from Security 
        Operations.--Rather than the current structure, under which 
        Transportation Security Inspectors enforce their own 
        interpretation of policy, Congress should direct TSA to 
        separate the Office of Compliance from Security Operations. The 
        Office of Compliance should be a stand-alone office reporting 
        to its own assistant administrator.
    Thank you again for the opportunity to testify today. I welcome any 
questions you may have.

    Mr. Katko. Thank you, Mr. Burke. We appreciate your being 
here today and your testimony. Looking forward to it.
    Our second witness is Mr. J. David Cox, who currently 
serves as the national president of the American Federation of 
Government Employees. Mr. Cox was first elected president of 
AFGE in August 2012, and was re-elected to a second term in 
2015. AFGE has increased its membership by more than 90,000 
employees since Mr. Cox was first elected to national office in 
2006. As a nationally recognized labor leader, Mr. Cox was 
appointed by President Obama to serve on the Federal Salary 
Council and the Federal Prevailing Wage Council.
    Mr. Cox is now recognized for 5 minutes for an opening 
statement.

 STATEMENT OF JEFFREY DAVID COX, NATIONAL PRESIDENT, AMERICAN 
               FEDERATION OF GOVERNMENT EMPLOYEES

    Mr. Cox. Thank you very much, Chairman Katko and Ranking 
Member Watson Coleman and Ranking Member Thompson and Member 
Estes. Thank you all for having me here today. I always enjoy 
the Southern hospitality that I experience with this group and 
the collegiality that this group always has together and as 
they go for the interest of the American public.
    But I want to talk about TSOs. They are the front line of 
the airport security. They are the eyes, the ears, the hands of 
TSA at the checkpoints and the baggage areas. They are the most 
visible of TSA's components and the most likely to be blamed 
when things go wrong, but we are almost never recognized for 
the excellent job that they do.
    I ask that Congress and TSA show their appreciation for 
TSOs' contribution to our Nation's security by guaranteeing 
fair treatment on the job. I also ask that Congress ensure TSOs 
have the resources they need to carry out their mission.
    Security screening of passengers and baggage was 
Federalized as a consequence of careful examination of our 
Nation's aviation security practices following September 11. 
That examination found that fatal security lapses were due to 
the fact that private screening contractors operated with too 
little oversight. The screeners they employed had little 
training, no standard operating procedures, high turnover, and 
very low pay.
    For 15 years, TSOs have kept America safe from terrorism 
and other risks. They get the job done. Their record is one we 
shall all be applauding today. For example, last year, TSOs 
seized 3,391 firearms at checkpoints, most of them loaded. They 
defied projections of long wait times during severe 
understaffings in last spring and summer as the busiest times 
of the travel season.
    Yet there are politicians who continue to try to privatize 
TSA. Make no mistake: Privatization through the Screening 
Partnership Program takes us back to pre-9/11 conditions. The 
future of TSA lies with Federal employees as TSO and not 
private contractors. Regarding their treatment on the job, TSA 
administrators have the option to decide whether to provide 
fundamental workplace rights and protections to TSOs. These 
basic rights should not be subject to the whim of whoever 
happens to sit in the corner office.
    Employee rights should not be subject to political 
appointee preferences, but current law allows for this. We ask 
that TSOs be granted the same statutory rights that protect all 
Federal employees from political influence and employment 
conditions that vary, depending upon which party is in power. 
AFGE recently ratified a contract with TSA by means of a 
collective bargaining process that is deeply inferior to what 
that which other Government agencies have been able to 
negotiate with their unions.
    TSA unilaterally changed and implemented rules inconsistent 
with previously agreed-upon rules. This reminds TSOs constantly 
that their own Government considers them second-class 
employees. TSOs should have statutory rights and protections 
under Title 5 of the U.S. Code, such as employment 
discrimination protections and full collective bargaining 
rights.
    I want to salute Ranking Member Bennie Thompson, 
Representative Nita Lowey, and Senator Brian Schatz for 
continuing to stand up for the TSO work force by introducing 
the Rights for Transportation Security Employees Act and the 
Strengthening American Transportation Security Act in the House 
and Senate.
    Both bills ensure TSOs and all other TSA employees have 
rights and protections under Title 5. I urge you to enact these 
bills into law. I ask again that Congress and TSA welcome TSOs 
as full partners in protecting the public. Thank you for the 
opportunity to testify, and I look forward to answering any 
questions you may have.
    [The prepared statement of Mr. Cox follows:]
                Prepared Statement of Jeffrey David Cox
                             March 14, 2018
    Chairman Katko and Ranking Member Watson Coleman, my name is J. 
David Cox, and I am the national president of the American Federation 
of Government Employees, AFL-CIO (AFGE), representing over 700,000 
Federal workers, including over 42,000 Transportation Security Officers 
(TSOs) who serve on the front line of aviation security at our Nation's 
airports. Thank you for the opportunity to testify before the 
Transportation and Protective Security subcommittee for the hearing on 
Examining the President's Fiscal Year 2019 Budget Request for the 
Transportation Security Administration. The officers represented by 
AFGE are critical to the Transportation Security Administration's 
(TSA's) mission and integral to the National security framework but 
face unnecessary difficulties we believe are largely created by TSA's 
failure to seek the funding necessary to address acute staffing 
shortages and to adequately compensate TSOs, especially officers who 
have shown a long-term dedication to the flying public by staying on 
the job.
    TSOs are the most visible position in the Department of Homeland 
Security (DHS) and interact most often with the public. The officers 
represented by AFGE are required to apply constantly-evolving 
procedures that change according to TSA's risk assessment, perform 
their duties swiftly, pleasantly interact with the public and are 
expected to never make a mistake. In 2017 TSOs discovered 3,957 
firearms in carry-on bags at checkpoints of which 84 percent were 
loaded. While screening more than 771 million passengers and 466 
million checked bags daily, our officers completed 2017 successfully, 
without a single terrorist incident on a TSA-screened aircraft and 
without a repeat of the long checkpoint lines of 2 years ago. The TSOs 
represented by AFGE appreciate the challenges of protecting the flying 
public, but wonder when they will receive tangible acknowledgment of 
their hard work and assistance in performing their duties.
    Despite their important role in the seamless framework of aviation 
of security, the TSO workforce continues to be confronted with serious 
workplace issues. AFGE commends Administrator Pekoske for identifying 
and discussing two of those important issues at a November 8, 2017 
hearing: Employee morale and pay rates for officers. Administrator 
Pekoske previously testified that employee morale is an incredibly 
high-priority issue and he believes that as employee morale improves, 
security effectiveness improves at the same time as attrition declines. 
AFGE agrees and believes the fiscal year 2019 TSA budget presents 
options to address the entrenched low employee morale at the agency and 
improve aviation security. AFGE would urge Administrator Pekoske to 
show the same commitment to increasing officers' pay and addressing 
staffing shortages as he has in advocating for increased training. The 
fiscal year 2019 TSA budget presents the following solutions to on-
going problems at TSA:
    instill objectivity and fair compensation to the tsa pay system
    TSA officers are underpaid, and the wage issues follow the 
workforce from smaller current paychecks to smaller retirement checks. 
New TSA officers are paid under the so-called D pay band. After 
completing 1 year on the job they automatically move to the E pay band 
in addition to the CEI and TOPS pay increases received for the last 2 
years. For the rest of the time they remain TSOs, the workforce remains 
in the E pay band unless promoted to another position at the agency. 
Because TSA recently eliminated the Behavioral Detection Officer 
position, TSOs can no longer achieve the higher G pay band, a 
difference of thousands of dollars. After failing to raise TSO base pay 
for a 5-year period, in 2014 TSA increased starting D and E band pay by 
5 percent, but failed to also adjust the pay of TSOs with years on the 
job. As a result, the pay of a TSO with 1 year on the job is now within 
a few thousand of a veteran TSO with 10 years on the job. TSOs do not 
receive the time-in-grade or other longevity pay increases that are 
built into the GS pay system. TSO paychecks fail to reflect the 
importance and expertise demanded of their work, and bonuses, if any, 
are not calculated into their pension benefits. The workforce deserves 
a pay system that is fair and adequately reflects their training, the 
complexities of tasks, and their seniority.
    AFGE makes the following recommendations for the fiscal year 2019 
TSA budget:
  <bullet> Adopt the GS pay system for the TSO workforce.
  <bullet> Adjust the pay of veteran TSOs to compensate for years of 
        wage stagnation and recognize their years of work at TSA.
  <bullet> TSA should request the funding necessary to adequately 
        compensate the TSO workforce.
      tsa should adequately staff checkpoint and baggage screening
    The House Fiscal Year 2018 Department of Homeland Security report 
stated of TSA Appropriations:

``The committee is concerned that, despite the continued upward trend 
in air travel, TSA continues to use artificially low estimates for 
anticipated growth in passenger volume when developing its 
Transportation Security Officer staffing requirements, resulting in 
multiple reprogramming actions in the year of execution to address 
rising wait times, or Congress appropriating additional funds above the 
budget request to address these unrealistic assumptions. The Committee 
supports TSA's efforts to seek innovative improvements in efficiency 
and security, and not solely relying on increases in staffing and 
overtime to address growth in air travel. Unless the agency uses 
realistic projections when developing its budget request, however, it 
will simply continue to set itself up for failure.''

    We agree with the House appropriations report language but we would 
respectfully suggest it should also recognize that it has been the hard 
work of TSOs that repeatedly rescues TSA from its failure to address 
checkpoint and baggage staffing at airports. For several years Congress 
passed spending bills that included arbitrary caps on the number of 
TSOs that did not comport with the rise in passengers. AFGE has warned 
before of the impact of TSO shortages on the security mission. These 
labor shortages also have a disproportionate impact on female TSOs who 
face denial of shift or line bids or delayed breaks due to chronic 
underrepresentation of women among the TSO ranks.
    There are other issues at play in the understaffing problem as 
well. For example, TSA failed to fill TSO vacancies based on an 
expectation that the public would enroll in TSA PreCheck and other 
trusted traveler programs despite evidence to the contrary. In response 
to long checkpoint lines during the spring and summer of 2016, former 
DHS Secretary Jeh Johnson redirected $34 million in reprogrammed funds 
to TSA. Most of this funding was used by TSA for overtime worked by its 
existing TSO workforce, even though the number of TSOs had fallen by 
5,000 since 2011. The 687 FTE TSO increase in the President's fiscal 
year 2019 TSA budget is only a first step. AFGE continues the call for 
5,000 additional TSO positions to address the staffing shortages 
created by attrition and TSA's erroneous projections. TSA's failure to 
adequately staff checkpoint and baggage screening areas leads to 
overworked officers and less security for the flying public.
    TSA's failure to maintain an adequate workforce also exposes TSOs 
to the loss of their jobs with the agency if airport operators threaten 
to privatize screening through the Screening Partnership Program as a 
means to gain additional staffing. Members of AFGE TSA Local 556 and 
Members of the Florida Congressional delegation, including House 
Homeland Security Committee member Val Demings, Representatives Darren 
Soto and Stephanie Murphy and Senator Bill Nelson are fighting in 
opposition to attempts to privatize screening at Orlando International 
Airport (OIA) by the airport operator. Despite high satisfaction 
ratings from passengers who use the airport, the airport operator 
includes inadequate staffing as a reason for the consideration of 
privatizing screening at the airport. Any problem in Orlando can be 
traced to highest-in-the-Nation passenger volume per checkpoint, and to 
the failure of local TSA managers to adequately manage that operation. 
While AFGE believes it is inappropriate for airport operators to hold 
the jobs and lives of the TSO workforce at the airport as a pawn 
against TSA, it is equally wrong for TSA to set a ceiling on TSO 
workforce instead of allocating that workforce by need.
    I also want to emphasize that all 2 million of the passengers 
departing on flights from U.S. airports must be screened by a person, 
regardless of canine alerts, enrollment in PreCheck, or the use of 
technology.
         end the separate and unequal personnel systems at tsa
    AFGE calls upon Administrator Pekoske to end TSA's separate and 
unequal personnel system that provides supervisors, administrative 
staff, and all other TSA employee rights that are denied to TSO, who 
make up the vast majority of the workforce. TSA has denied TSOs the 
ability to appeal adverse personnel decisions to the Merit Systems 
Protection Board (MSPB) or an independent third party. A minority of 
TSA employees, including supervisors and managers, can appeal adverse 
personnel decision to the MSPB. In January the DHS Office of Inspector 
General issued a report detailing how high-ranking TSA officials 
(Deputy Administrator Mark Hatfield, Chief Counsel Francine Kerner, and 
former Office of Professional Responsibility Assistant Administrator 
Heather Book) interfered with TSA disciplinary process to ensure a more 
lenient outcome for the Transportation Security Executive Service 
employee found to have violated TSA policies and procedures. TSOs are 
denied the protections of the Fair Labor Standards Act and the Back-Pay 
Act simply because their job classification is that of transportation 
security officer and TSA has blocked the application of the law to 
them. If the agency wishes to increase employee morale to reflect that 
of other Government agencies, it must treat all its employees the same 
rather than continue a separate and unequal system within TSA.
    TSA must also address labor-management rollbacks that have 
increased under Administrator Pekoske. Since the start of the Trump 
administration, TSA has announced the following rollbacks:
  <bullet> The end of quarterly labor-management meetings
  <bullet> The end of the National Advisory Council and the Diversity 
        Advisory Council--both employee- and manager-led committees 
        that jointly tackle Nation-wide workforce issues.
  <bullet> Refused to meet with AFGE TSA Council 100, the exclusive 
        representative of the TSO workforce and instead hosts random 
        ``town halls'' at some airports. The town hall attendees are 
        selected by TSA and are made up of mostly managers and 
        supervisors. The town halls are not focused on the needs of the 
        largest most critical portion of TSA: The front-line screening 
        workforce.
  <bullet> Refused to sign the most recent collective bargaining 
        agreement (CBA) between AFGE and TSA.
  <bullet> Sought to undermine third-party review and resolution of 
        disputed CBA provisions.
  <bullet> Unilaterally deemed ``non-negotiable'' provisions that were 
        negotiable under the last CBA.
  <bullet> Continued to refuse to negotiate a grievance procedure with 
        AFGE.
  <bullet> Awarded a non-competitive contract worth more than $500,000 
        to evaluate TSA's dispute resolution system to a contractor 
        from the Chickasaw Nation that has demonstrated no expertise in 
        dispute resolution, grievance review, or TSA's grievance system 
        specifically.
    TSA has eliminated existing labor-management frameworks for solving 
issues between the agency and employees through their exclusive 
representative. I have urged Administrator Pekoske to commit to 
building a labor-management relationship at TSA and addressing issues 
with the employees' elected exclusive representative. We engage with 
the front-line workforce daily and those front-line officers have a lot 
to offer to improve labor relations and the overall security mission: 
AFGE is their elected conduit for that input.
    Congress can also do its part by ensuring TSOs have the same 
workplace rights and workplace protections under Title 5 of the U.S. 
Code as other DHS employees. H.R. 2309, the Rights for Transportation 
Security Officers Act, introduced by Homeland Security Committee 
Ranking Member Bennie Thompson (D-MS) and Appropriations Committee 
Ranking Member Nita Lowey (D-NY), repeals the authority of TSA to 
unilaterally set the terms and conditions of employment for 44,000 
TSOs. AFGE strongly supports the Rights for Transportation Security 
Officers Act, and I call on you to report this important bill out of 
committee.
    Meanwhile, the TSA employee attrition rate has far surpassed the 
Federal Government attrition rate since the agency was created 
following the terrible events of September 11, 2001. Declines in 
attrition rates from astronomical highs of over 20 percent to the 
current fiscal year attrition rate of about 12 percent is nothing to 
brag about and detrimental to security. These high attrition rates do 
not occur in other DHS components where the rank-and-file workforce are 
afforded workplace rights and protections under title 5 of the U.S. 
Code. Similarly, some airports see attrition rates far higher than the 
average rate cited by the administrator in previous testimony. We 
believe that if we address the issues of pay, staffing, and the 
grievance procedure, attrition will start to improve.
    AFGE strongly supports H.R. 2514, the Funding for Aviation 
Screeners and Threat Elimination Restoration (FASTER) Act introduced by 
Representative Peter DeFazio, and Homeland Security Committee Ranking 
Member Bennie Thompson and Transportation and Protective Security 
Subcommittee Ranking Member Bonnie Watson Coleman. The FASTER Act 
provides an ample and much need funding to TSA by returning to TSA the 
security fees collected from passengers instead of applying the funds 
to pay for other items in the general fund. The FASTER Act would 
restore more than $19 billion for use to both the TSOs and technology 
to ensure aviation safety and move passengers effectively and 
efficiently through airport checkpoints.
                               conclusion
    In this testimony I have outlined numerous proposals for the TSA 
workforce that are all related, ultimately, to increasing aviation 
security, fairly treating the TSO workforce and in return save taxpayer 
funding. This can be accomplished by eliminating poorly conceived and 
inefficient H.R. and labor relations programs, processes, and 
protections at TSA in favor of those available to Federal workers under 
title 5 of the U.S. Code. AFGE has worked successfully with countless 
agency heads under administrations of both parties to represent our 
members and bolster the performance of the Federal Government function 
for the benefit of the U.S. public. There is no good reason why our 
union cannot have the same relationship with TSA under the leadership 
of Administrator Pekoske. Thank you for the opportunity to share AFGE's 
views on these important issues, and I am available to answer any 
questions you might have.

    Mr. Katko. Thank you, Mr. Cox. We appreciate you being here 
today.
    I now recognize myself for 5 minutes of questions. I want 
to talk for a minute about the PreCheck program and how it 
impacts personnel issues and personnel levels at the airports. 
Early on, there were some prognostications, if you will, that 
TSA PreCheck could get up to 20 million enrollees. We have 
spent an awful lot of time and effort trying to get those 
numbers up, and they have gone from less than a million to over 
4 million now, but nowhere near the 20 million-mark level.
    So I was wondering, Mr. Burke, if you could tell us what it 
is that they could do better in marketing PreCheck. Where do 
you see problems with the current PreCheck program now? If you 
could address some of the things that we are concerned about, 
especially the security issue, and that is individuals being in 
the PreCheck lane that should not be there because they are not 
enrollees. The time of them doing that is going to be ending 
quickly by law, hopefully, because we are introducing 
legislation to fix that.
    But I would like to hear your take on that, if you would.
    Mr. Burke. Well, Mr. Chairman, to address the first part of 
your question, we as an organization, airports have fully 
supported PreChecks. We look at the opportunity to be able to 
move safely and efficiently passengers through their lines as 
the ability to be able to keep people safe at airports.
    We have advocated to TSA that they market this program 
better than they have had. We have offered--our airports have 
offered space for people to enroll at airports as they get 
there, free of charge. They open up an office. You can enroll. 
I have offered the advice to TSA that, why don't we do the same 
thing that the folks in Customs do with their passports and be 
able to go to a local post office to be able to begin the 
application process?
    Eventually you will have to go to an airport for an 
interview, but to begin the process, because most people that 
we want to have join TSA PreCheck don't travel as much as I do. 
I travel all year long. But we have people who infrequently do 
it who would benefit greatly from the ability to do that.
    So we advocated better marketing of the program. The 
numbers are better. They can do much, much better. The 
challenge is, though, even with marketing TSA PreCheck, TSA has 
to have the officers and the ability to man those PreCheck 
lanes. It is great to have PreCheck, but if you don't have TSOs 
to be able to support that, then the program is effective, but 
not as effective as it could be.
    So better marketing, the ability for us to be able to--and 
TSA to get more people in line, making it easier for the 
traveling public to become part of the program.
    Mr. Katko. Thank you. Anything you would like to add, Mr. 
Cox?
    Mr. Cox. I would agree with the statement. Even with the 
PreCheck, as that lane moves a little faster, you still have to 
have employees. There still has to be the screener there, the 
person monitoring the folks going through the screening, 
checking the baggage. It moves faster, but if you don't have 
employees or the lanes are closed at certain hours, they are 
still of no benefit. So--and that is the first lanes they will 
close down in many airports that I go through. I am in airports 
virtually every day of my life. That is the lane that will get 
closed the quickest, and they will funnel the passengers into 
the other lanes.
    So you still have to have the staff. TSA has about 5,000 
less screeners now than they were several years ago.
    Mr. Katko. I want to follow up basically on a more broader 
topic here, Mr. Burke first. The stakeholder engagement in the 
budget process, could you describe if you have had any 
engagement whatsoever in the process or any input? The same 
question would be for Mr. Cox, as well.
    Mr. Burke. Well, in terms of direct impact, we have staff 
who talk to TSA and the administration about the need for 
airports. We have advocated for more officers. We have 
advocated for Congress to continue to fund exit lanes. More LEO 
reimbursement, because we see that as essential to help our TSA 
officers at the front lines of security at airports.
    So we have advocated as an industry that the more security 
we have at airports, the safer passengers are. We have 
transmitted that message to TSA and the administration. We 
began the administration with a list of regulatory changes that 
we were hoping would happen, and in that recommendation are how 
we would deal with TSA.
    We view TSA as a partner. We have a very good relationship 
with them. We have nearly 900 million people that pass through 
United States airports every year. So the job that TSA does to 
secure the safety of these people from the beginning when they 
enter the airport from the time they step on the plane is an 
enormous responsibility. We view this as an airport being able 
to work with a regulatory agency like TSA together with our on-
site law enforcement people as a multi-pronged, multi-ring 
ability to be able to secure the airport, whether it be through 
cameras, whether it be through dog patrols, whether it be 
through officers walking through the airport.
    But we have expressed our position that more needs to be 
done, more officers--to my colleague's position here--more 
officers need to be put in place to protect the traveling 
public.
    Mr. Katko. OK, briefly, Mr. Cox? I only have a few moments. 
Anything you would like to add?
    Mr. Cox. We advocate, we write letters, we--to all the 
Members of Congress, as well as to the administration, but an 
active role into the budget process, no, sir, we don't. I would 
say, I suspect each one of you, as you plan for your budget for 
your office, you sit down with your staff and you start 
projecting the needs for the coming year and look to those 
people that help you do that work. I think TSA needs to look to 
the TSOs through their exclusive representative, AFGE, what 
would it take to run a successful TSA?
    Mr. Katko. Thank you very much. I would be remiss if I did 
not note, as I try to at every hearing, the incredibly great 
job that TSOs do under very difficult circumstances. They are 
constantly trying to find the proverbial needle in a haystack 
under stressful and difficult conditions, and they do a 
remarkably good job with what they are faced with. So I 
appreciate them.
    The Chair now recognizes the gentleman from Mississippi, 
the Ranking Member, Mr. Thompson.
    Mr. Thompson. Thank you very much. Thank you, gentlemen, 
both for being here. Mr. Cox, it is always nice to get a 
witness that has the same accent as the Ranking Member. So I am 
more than happy to be here.
    You heard my line of questioning to the administrator 
relative to pay, longevity pay, evaluations, pay scale. What 
was your reaction to his answers to me?
    Mr. Cox. I believe that the administrator would like to pay 
the employees more money. But I heard him say, ``But I only 
have so much money.'' If the TSOs were on the Title 5 pay 
scale, when Congress did its budget as it did a few weeks ago, 
it passed the budget, the TSOs would have gotten their cost-of-
living raises, they would have gotten their within grade 
raises, they would have gotten those things like all other 
Federal employees would have received. It wouldn't have been a 
burden upon an administrator to decide ``I can or can't give 
but so much to so many,'' and the haves and the have-nots. They 
should be treated like all other Federal employees.
    Mr. Thompson. So is your testimony that you are not asking 
for anything more for the people you represent, other than what 
other Federal employees enjoy every day at the workplace?
    Mr. Cox. That is exactly right, like all other Federal 
employees, Border Patrol, ICE agents, Coast Guard agents, all 
of those folks in Homeland Security are on the GS pay system.
    Mr. Thompson. Thank you.
    Mr. Burke, do you support the collection of passenger 
security fees?
    Mr. Burke. Do we support--absolutely. As a matter of fact, 
we have expressed concern about the diversion of the security 
fees that should be going to TSA that have been diverted to go 
to other programs.
    Mr. Thompson. That is the second part of my question.
    Mr. Burke. OK. I read your mind.
    Mr. Thompson. Absolutely. So the diversion going to deficit 
reduction versus items that you are about to illuminate would 
be a far better use in your professional opinion than what it 
is presently going to?
    Mr. Burke. That is correct.
    Mr. Thompson. I yield back.
    Mr. Katko. Let the record reflect that is the first time I 
have seen you not use all your time.
    [Laughter.]
    The Chair now recognizes Mrs. Watson Coleman for 5 minutes 
of questioning.
    Mrs. Watson Coleman. Thank you. It is good to see you, Mr. 
Cox, and it is good to hear from you, Mr. Burke.
    Mr. Cox, the employee disciplinary process for TSOs, is 
that different than it is for other Federal employees?
    Mr. Cox. Yes, ma'am, it is.
    Mrs. Watson Coleman. How so?
    Mr. Cox. Well, it changes by the hour. It can change 
totally at the desire of the administrator or the 
administrator's general counsel. It goes through these 
resolution committees. They can decide to accept it or just 
totally reject it. It is very much of a kangaroo court.
    Mrs. Watson Coleman. Does that contribute to the concern 
with morale?
    Mr. Cox. Yes, ma'am, it does, because they are not treated 
fairly like everyone else.
    Mrs. Watson Coleman. So there was a ranking that was done 
and TSA was ranked like 339? Something of that--336 out of 339. 
But it was ranked dead last because of the pay scale?
    Mr. Cox. The pay scale and also the work rules that TSA 
has.
    Mrs. Watson Coleman. Like what work rules?
    Mr. Cox. The work rules governing collective bargaining. 
They don't have full Title 5 collective bargaining rights. They 
don't have the appeal rights that other Federal employees 
have----
    Mrs. Watson Coleman. Do they have any negotiation ability?
    Mr. Cox. We have--we negotiate over when you can wear 
shorts and when you can wear long pants and when you can wear 
short-sleeved shirt and when you can wear a long-sleeved shirt, 
according to the temperature in the work area.
    Mrs. Watson Coleman. So the President's budget in a number 
of ways I found very troubling. One of the ways, one of the 
issues that I found particularly troubling was the reduction of 
the reimbursements to the local enforcement officers. So I am 
wondering, how does the LEO reimbursement diminishment impact 
the safety and security of the TSO officers?
    Mr. Cox. Our officers, our members are dependent upon local 
law enforcement for the protection. Obviously, I think we are 
all very much aware of what happened in Los Angeles and what 
happened in New Orleans, that we have had one officer killed, 
other officers injured. But for police being in that area, 
local law enforcement intervening and moving forward, I think 
things could have been a lot worse. That local law enforcement 
is the only people that have weapons and have arrest authority, 
those type things for the protection of not just TSOs, but the 
American traveling public.
    Mrs. Watson Coleman. So how many TSOs are there?
    Mr. Cox. There is right at 44,000.
    Mrs. Watson Coleman. There are 44,000. How many would you 
consider to be full staffing?
    Mr. Cox. Right now, I would say we are down right at about 
5,000 from where we were at several years ago.
    Mrs. Watson Coleman. Was that full staff?
    Mr. Cox. That was when the agency was beginning. Pretty 
much full staffing. There is a lot more air traffic now and 
more passengers than there was 5 years ago.
    Mrs. Watson Coleman. Well, I think I have got the message 
as it relates to the sort of unpredictability and anxiety this 
creates for employees and the system and how it is really 
controlled by individual decisions, individual preferences. 
Thank you very much for that.
    I yield back.
    Mr. Katko. Thank you, Mrs. Watson Coleman. The Chair now 
recognizes the gentleman from Kansas, Mr. Estes, for 
questioning.
    Mr. Estes. Thank you, Chairman. Mr. Burke, recently you 
spoke at the 2018 aviation summit and mentioned that some of 
the key issues are work-facing industry now, or work force 
planning, security, facilitation, and infrastructure. Can you 
talk a little bit about how well the President's budget is 
addressing those particular issues that you raise there?
    Mr. Burke. Well, Mr. Estes, not as well as we would like 
them to be. I will start with infrastructure. The President as 
a candidate and as a President talked about rebuilding 
America's airports through an infrastructure package. We 
haven't seen one yet. Hopefully we will have one.
    But also, too, Congress had the opportunity several weeks 
ago through the omnibus bill to modernize the passenger 
facility user fee, which all passengers pay, as a user fee to 
pass through our airports. That fee was instituted nearly 20 
years ago, and that fee has not increased in 18\1/2\ years. It 
is at $4.50. We advocated a $4 increase.
    That money would go to modernizing America's airports. The 
average age of a terminal in the United States is over 40 years 
old. Those airports were created before they had TSA, before we 
had the security concerns post-9/11. Yet all of those airports 
have had to figure a way to adapt their aging infrastructure to 
the requirements of TSA on one side of the airport, Customs and 
Border Protection at the other end, with little to no increase 
in their PFC to--which is used to build out terminals.
    There are times, like, for example, in Syracuse, Chairman 
Katko's district, where some of those funds are used for exit 
lane technology. Now, we fully support paying for exit lanes. 
Congress approved it back in 2013. We fully support that. But 
in the future, technology is an opportunity or choice for 
airports to be able to change.
    Mr. Katko goes through that security system every week, and 
it is actually paid for itself through this fee. Yet Congress 
had an opportunity to fix that at no cost to the Federal 
Government, and it didn't make it through the omnibus process. 
Nor did it make it through the authorization process for the 
Transportation and Infrastructure Committee.
    So I look at it--our industry looks at it as this is a 
21st-Century world. We are dealing with airports that were 
built in the 20th Century. We have to take the infrastructure 
and modernize it to be able to make it efficient and safe for 
the traveling public.
    So when I look at what is happened, we were excited about 
rebuilding airports. The President during his campaign spoke I 
think it was over 200 times about us being third-world 
airports. We figured this is great, we are going to be able to 
get money, we are going to be able to increase the PFC. That 
hasn't happened yet.
    Our expectation is that over time we will be able to do 
that, but in order for us to be able to keep our passengers, 
our customers safe, there is a host of things we have to do. 
The first start is making certain that the facilities that we 
are providing TSA and Customs are that--that makes it easier 
for them to do their jobs and makes it safer for passengers to 
get through the airport in a safe and efficient manner.
    I hope that answers your question, sir.
    Mr. Estes. Thank you. Mr. Cox, I have a couple questions 
for you. I may start with one just in case we ran out of time, 
which wasn't necessarily the one I wanted to start with, but 
you had mentioned about private screeners versus, you know, 
TSO, Federally-employed TSO agents. I wanted to talk a little 
bit about--you were a very strong advocate that we needed to 
not be using private screeners. I wanted to make sure that we 
weren't missing the boat somewhere in these airports that 
currently do have them.
    Are there--is it a training issue that the private folks 
don't have? Are there tools they don't have, resources they 
don't have, procedures that we don't require them to follow 
that makes it such a strong concern? You know, do we need to do 
something now with those facilities that do use----
    Mr. Cox. There were several airports, as you well know, 
that in the very beginning that remained with private screeners 
that were various size, as sort-of a test. Some--I believe it 
was Montana that came in and asked to go private, and then came 
back later on and said it is not working for us, we want TSA to 
take that back over again.
    Occasionally, Kansas City went up for bid several years 
ago, and it was a bidder that bid less and got the contract, 
and they were struggling to already staff, and the people were 
saying now it is going to be even harder to staff, to pay that 
staff less. There is also--there is not the mobility that some 
people--their lives change. They work in New York, and now 
something has happened, they want to work in Arizona. They have 
the ability to transfer to another airport, just as Government 
employees do, and all other Government agencies. They don't 
have that with the private screeners.
    We believe that it is proven that they were Federalized and 
the Government has done that simply because the private process 
was not working effectively throughout this country. We saw 
what happened, and I think TSA has a record that is proven to 
be great, that this country has had no terrorism since we have 
done it with professional staff.
    Mr. Estes. Thank you. Mr. Chairman, I am out of time. I did 
have one more question, if you wanted to allow that, or if we 
are doing a second round.
    Mr. Katko. Very, very briefly. Thanks, please.
    Mr. Estes. My question--and hopefully this doesn't go too 
long--I just--are there additional training needs that we might 
have for the TSO agents that we can address?
    Mr. Cox. I think training is always an issue for any 
employee, because I am a registered nurse, worked for the V.A., 
but still yet when there were veterans to be cared for and they 
were coming in faster than we were able to take care of them, 
if it was my day to go to training, I had to take care of the 
veterans.
    There is never a shortage of passengers to be screened in 
an airport. There is always going to be a rush to go on. 
Training has to be planned for in any organization. I think it 
is imperative with the technology as it changes almost by the 
moment and the screening industry that all the TSOs constantly 
have the chance to go to be retrained, to have the refresher 
training, to do those type things, to be good and to be the 
experts, because as the Chairman said, they do a great job. I 
couldn't do that job. I look at that, and I have no idea what 
is on that screen. But I know they get me safely from one point 
to the other.
    Mr. Chairman, can I say to this committee, it is always a 
joy to come and testify before this group. We have a lot of 
partisanism and all type of things in our Government, but I 
have never come to this committee that it hasn't been a great 
experience, and every Member of the committee is always 
concerned about the American public. That is the lot for every 
Member that serves on this committee, sir.
    Mr. Estes. Thank you, I yield back.
    Mr. Katko. Thank you, Mr. Cox.
    I wanted to thank the witnesses for their thoughtful 
testimony today. Members of the committee may have some 
additional questions for the witnesses. We will ask them to 
respond to those in writing.
    Pursuant to committee rule VII(D), the hearing record will 
be held open for 10 days. Without objection, subcommittee 
stands adjourned.
    [Whereupon, at 3:47 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

        Questions From Chairman John Katko for David P. Pekoske
    Question 1a. In December, TSA Administrator David Pekoske said that 
DHS is considering the merger of trusted traveler programs such as 
PreCheck and Global Entry to help reduce costs and increase security.
    Is this something that DHS is seriously considering, and if so, how 
much progress has been made toward combining the two programs?
    Question 1b. What sort of cost savings do you expect from combing 
the programs?
    Answer. While recognizing differences within each program, the 
Transportation Security Administration (TSA) and Customs and Border 
Protection (CBP) are collaborating to identify efficiencies and 
security effectiveness within their trusted traveler programs; this 
includes reviewing the challenges and opportunities for a potential 
merger. TSA and CBP are evaluating the creation of a single DHS on-line 
portal to support both programs, including the potential to facilitate 
the enrollment of some Global Entry applicants at TSA PreCheck 
enrollment centers. As potential solutions are still being developed 
and considered, it is premature to determine cost savings.
   Questions From Ranking Member Bonnie Watson Coleman for David P. 
                                Pekoske
    Question 1a. Passenger volume continues to grow, and if it outpaces 
TSA's predictions, TSA will face major wait times, as it did 2 years 
ago.
    How much passenger volume growth is TSA predicting over fiscal year 
2019?
    Answer. The Transportation Security Administration (TSA) 
anticipates approximately 3 percent increase in passenger volume for 
fiscal year 2019. In the short term, TSA has a plan to meet projected 
summer 2018 volume demands by increasing hiring prior to summer, adding 
additional overtime resources during the summer months, and increasing 
the number of operational Passenger Screening Canine teams. Increased 
hiring is currently on track for our peak summer travel period to have 
our TSA front-line staffing headcount be 1,600-1,800 higher than July 
2017.
    Question 1b. How did TSA calculate its predictions for passenger 
volume growth when formulating the budget request?
    Answer. TSA uses several sources to forecast volume. These include 
the Federal Aviation Administration's forecasts, future flight 
schedules, industry input, and historical throughput trends.
    Question 1c. Did TSA consult with airports and airlines when 
formulating these predictions, including taking airport size 
constraints into account?
    Answer. Yes, TSA requests airport and airline input as part of this 
process. Additionally, through the modeling process, size constraints 
are considered. Any such constraints are monitored and updated as 
airports add new lanes and/or checkpoints. Within available resources, 
TSA is able to ensure the staffing is made available to support any new 
throughput that is generated.
    Question 2a. If there were no budget constraints, how many full-
time equivalent front-line positions do you believe TSA requires to 
execute its mission as effectively as possible?
    Question 2b. How does that number compare to what is proposed in 
the fiscal year 2019 budget?
    Answer. The fiscal year 2019 budget request will provide the 
resources necessary to meet our mission, if the requirement to staff 
exit lanes is turned over to airports as proposed.
 Questions From Ranking Member Bennie G. Thompson for David P. Pekoske
    Question 1. Please provide to the committee the process by which 
TSA front-line officers receive regularly-scheduled pay raises, the 
percentage of officers who received pay raises in each of the last 3 
calendar years, and the average dollar amount of pay raises in each of 
the last 3 calendar years. Please do not include changes to Cost of 
Living Adjustments as part of the pay raises.
    Answer. On an annual basis, TSA leadership outlines any proposed 
pay adjustments and/or performance awards at the respective performance 
rating levels for the Transportation Security Officer (TSO) workforce. 
Nation-wide, the amount of any pay adjustment and/or performance award 
will be consistent for all eligible employees with the same rating of 
record.
    To be eligible to receive a pay adjustment and/or performance 
award, employees must meet the following criteria:
    (1) Appointment date to the TSO Workforce is on or before June 30 
        of the current performance year. This allows for the employee 
        to be on a performance plan a minimum of 90 days prior to the 
        end of the fiscal year;
    (2) Must have a qualifying rating of record of level 3--``Achieved 
        Expectations'' or higher for the performance cycle in the 
        current rating year or a presumed rating as a result of an 
        absence due to military service; and
    (3) Must be employed by TSA on the effective date of the TSO 
        Workforce Performance Payout.
    The table below depicts the percentage of officers who received pay 
raises in each of the last 3 calendar years:

------------------------------------------------------------------------
                                                           Percent TSOs
                                                             Receiving
                    Performance Year                        Performance
                                                             Increase
------------------------------------------------------------------------
2015 *..................................................              41
2016....................................................              89
2017....................................................              89
------------------------------------------------------------------------
In 2015, TSA used a different methodology for determining performance
  increases that was dependent on the employee's percentile ranking
  within the Federal Security Director's area of responsibility. In
  2016, based on feedback from the workforce, this methodology was
  changed to reflect Nation-wide consistency for all eligible employees
  with the same rating of record.


    The table below depicts the average dollar amount of pay raises in 
each of the last 3 calendar years:

------------------------------------------------------------------------
                      Calendar Year                        Average Raise
------------------------------------------------------------------------
2015....................................................            $448
2016....................................................            $249
2017....................................................            $244
------------------------------------------------------------------------

    Question 2a. In this budget proposal, TSA seems to be wiping its 
hands of responsibilities for securing surface transportation. After 
cutting grant funding and eliminating the VIPR program, TSA would be 
left with almost entirely voluntary surface security programs since it 
has still not issued regulations required under the 9/11 Act.
    Given these cuts to surface security programs, it is more 
imperative than ever that these regulations be issued as quickly as 
possible. What is the time line for issuing final rulemakings?
    Question 2b. If the Executive Order is an impediment to issuing 
these regulations, I would remind the administration that Executive 
Orders do not trump statutory requirements. Have you raised this issue 
within the administration?
    Answer. In the decade since enactment of the 9/11 Commission Act of 
2007 
(9/11 Act), TSA has worked with Government and industry partners to 
enhance the security of surface transportation modes consistent with 
the requirements of the 
9/11 Act. As a result, 39 of the 41 surface transportation security-
related mandates of the 9/11 Act have been met, including development 
of National strategies for public transportation security and railroad 
transportation security. These National strategies were developed in 
collaboration with industry and have been implemented as part of the 
National Strategy for Transportation Security (NSTS).
    TSA is prioritizing the outstanding requirements of the 9/11 Act. 
As noted in the Spring 2018 Unified Agenda, TSA intends to publish a 
final rule to implement the requirements to provide security training 
to surface transportation employees in calendar year 2018. TSA will 
respond to comments received on the proposed rule as part of the 
rulemaking process. TSA also targets calendar year 2018 for publication 
of a proposed rule to meet requirements to develop a vetting program to 
perform name-based background and immigration checks for front-line 
public transportation and railroad employees, and calendar year 2019 to 
publish a proposed rule that would require vulnerability assessments 
and security planning by owner/operators of higher-risk surface 
transportation systems.
    TSA continues to work with its stakeholder partners to reduce 
vulnerabilities and mitigate risk simultaneously with developing these 
regulations. Numerous programs and measures have been developed and 
implemented to better protect surface transportation hubs and systems 
by building upon and complementing existing Federal safety regulations 
and programs. Collaborative efforts between TSA and surface 
transportation-related associations have been instrumental in the 
development of voluntary standards and recommended practices; the 
owners and operators of key systems have consistently adopted these 
standards and recommendations to enhance security within their systems.
    In early 2017, the President issued two executive orders (EO) on 
regulatory reform: EO 13771, Reducing Regulation and Controlling 
Regulatory Costs, and EO 13777, Enforcing the Regulatory Reform Agenda. 
Like other Federal agencies, TSA must comply with both of those 
Executive Orders as it proceeds with issuance of its regulations. 
Regulations not exempted from EO 13771 must be offset by elimination of 
two other regulatory actions and have deregulatory offsets to ensure 
the new regulation has $0 incremental costs or fits within the 
Department's regulatory cost allowance. As a department, DHS has a $0 
regulatory cost allowance for fiscal year 2018.
    Additionally, EO 13771 explicitly exempts ``regulations issued with 
respect to a . . . national security . . . function of the United 
States'' from the requirements of the EO. OMB's April 5, 2017, 
implementing guidance further defines the National security exemption 
to include legislative rules for which: (1) The benefit-cost analysis 
demonstrates that the regulation is anticipated to improve National 
security as its primary direct benefit, and (2) qualify for a ``good 
cause'' exception under notice-and-comment rulemaking. TSA does not 
anticipate issuing these 9/11 Act rules under the good cause exception 
(and has already issued the security training rule as a proposed rule), 
and so the rules would not fit within the National security exemption 
as provided for in OMB's guidance. OMB has indicated it will make these 
determinations on a case-by-case basis at the final rule stage.
    Finally, OMB's implementing guidance provides that EO 13771 ``does 
not prevent agencies from issuing regulatory actions in order to comply 
with an imminent statutory or judicial deadline, even if they are not 
able to satisfy EO 13771's requirements by the time of issuance.'' 
Specifically, the guidance further indicates that under such 
circumstance agencies can carry a balance, but must commit to 
identifying offsetting deregulatory savings ``as soon as practicable 
thereafter.''
    Question 3. What security enhancements could TSA make if the $1.3 
billion that is being diverted from the Passenger Security Fee went to 
TSA?
    Answer. Securing the commercial aviation sector is one of the most 
important missions within the Department of Homeland Security and this 
past year has shown that the threats to aviation continue to evolve and 
remain pervasive. If the $1.3 billion were available to TSA, the agency 
would work to advance security efforts by investing in several areas 
including in capital investment security assets needed to keep up with 
the dynamic threats facing aviation, increasing staffing of the front-
line workforce to keep pace with growing passenger volumes, and 
training of our employees.
    Question 4a. What is the status of the implementation of TSA's 
revised policy for Law Enforcement Availability Pay issued in August 
2017?
    Question 4b. How does this policy change affect TSA criminal 
investigators who are currently at or over the General Schedule pay 
cap?
    Question 4c. Does the application of the General Schedule pay cap 
mean that those who are currently at or near the TSA pay cap because of 
LEAP compensation will be subject to an immediate pay cut? Why or why 
not?
    Answer. On August 9, 2017, Acting Administrator Gowadia announced 
that TSA would immediately adhere to the title 5 Law Enforcement 
Availability Pay (LEAP) cap for TSA law enforcement officers, our 
Federal Air Marshals and 1811 Criminal Investigators. For Federal Air 
Marshals and Criminal Investigators whose basic salary and LEAP were 
below the General Schedule (GS) 15, Step 10 premium pay cap for their 
locality pay area at the time of adoption of the title 5 pay cap, that 
action did not have any impact on their compensation. Going forward, as 
these employees receive pay adjustments, their total compensation will 
continue to increase up to the GS-15, Step 10 premium pay cap for their 
locality pay area. Once an employee approaches the GS-15, Step 10, 
premium pay cap, as they receive future pay increases, the LEAP 
percentage will decrease until LEAP becomes zero. Once the basic pay 
reaches the cap and the employee is no longer receiving LEAP, they are 
eligible to earn a salary above the GS-15, Step 10 premium pay cap for 
their locality area subject to the same limits as their non-LEO 
counterparts in TSA. The August 9, 2017 change was put in place in 
order to limit the negative impact to employees, due to existing 
policies and lack of authorities described below.
    The following example illustrates how the salary of a J band 1811 
Criminal Investigator based in Washington, DC (locality pay of 28.22 
percent) will increase over time:
  <bullet> An employee will receive a diminished LEAP percentage so 
        that the payment of LEAP does not cause the total of basic pay 
        plus LEAP to exceed the GS-15, Step 10 premium pay cap.
  <bullet> As the employee receives pay adjustments their basic pay 
        will increase and the LEAP percentage will decrease until it 
        becomes zero.
    Once the employee is no longer receiving LEAP, they are eligible to 
        earn a salary above the GS-15, Step 10 pay cap as their non-LEO 
        counterparts in TSA.

----------------------------------------------------------------------------------------------------------------
                                                                                                        Current
                                                           Basic Pay  Basic Pay   Percent    Salary +    GS-15,
             Pay Band                   Pay Adjustment         *          +       of LEAP      LEAP     Step 10
                                                                       Locality   Received              Pay Cap
----------------------------------------------------------------------------------------------------------------
J.................................  N/A..................   $102,000   $130,784         25   $163,480   $164,200
J.................................  6....................   $108,120   $138,631    18.4439   $164,200   $164,200
J.................................  5....................   $113,526   $145,563    12.8034   $164,200   $164,200
J.................................  2.5..................   $116,364   $149,202    10.0521   $164,200   $164,200
K.................................  Promotion 6..........   $123,364   $158,154     3.8227   $164,000   $164,200
K.................................  4....................   $128,280   $164,481          0   $164,481   $164,200
----------------------------------------------------------------------------------------------------------------
The TSA 2018 minimum basic pay for a J band is $75,302 and the maximum is $116,714. The TSA 2018 minimum basic
  pay for a K band is $90,018 and the maximum is $138,151.

    The August 9, 2017, adoption of the title 5 premium pay cap did not 
impact those employees whose basic salary and LEAP exceeded the GS-15, 
Step 10 premium pay cap for their locality pay area on August 9, 2017. 
This group of employees was specifically exempted from the application 
of the title 5 premium pay cap. As these employees receive pay 
adjustments their total compensation will continue to increase.
    The calculation of retirement benefits is subject to the Office of 
Personnel Management's (OPM) interpretation of its authority. OPM has 
made a determination, based on 5 U.S.C. 8331(3)(E)(ii), that it lacks 
the authority to include as part of basic pay any amount of LEAP for 
any Federal Air Marshal exceeding the title 5 premium pay cap. 
Additionally, in the absence of legislation explicitly authorizing OPM 
to credit LEAP toward 1811 Criminal Investigator retirement, OPM has 
made a determination, based on 5 U.S.C. 8331(3)(E)(i), that it is not 
authorized to credit any amount of LEAP (including that earned below 
the title 5 premium pay cap) for retirement purposes for 1811 Criminal 
Investigators who receive LEAP under the TSA personnel authority. 
Implementation of the title 5 GS-15, Step 10 premium pay cap for 
employees earning LEAP, does not subject any employee to an immediate 
pay cut.
    TSA has offered proposed legislation that, for retroactive periods 
prior to the date of enactment, will specifically authorize OPM to 
credit as part of basic pay, all amounts of LEAP earned by criminal 
investigators, and any amount of LEAP earned in excess of the title 5 
premium pay cap by 1811 Criminal Investigators and Federal Air 
Marshals. Under the proposed legislation, all TSA LEAP recipients would 
be subject to the title 5 premium pay caps in determining the amount of 
retirement-creditable LEAP going forward. The legislation would also 
provide that TSA Federal Air Marshals and 1811 criminal investigators 
receiving retirement-creditable LEAP would be exempt under the overtime 
provisions of the Fair Labor Standards Act, consistent with the 
treatment of criminal investigators receiving LEAP under title 5.
    Question 4d. Please describe TSA's efforts to work with the Office 
of Personnel Management to cease debt collection efforts against 
retired TSA criminal investigators.
    Answer. TSA has been working with the Department's chief human 
capital officer and OPM since 2014 to resolve the issues related to the 
calculation of retirement benefits for TSA's Federal Air Marshals and 
1811 Criminal Investigators. In October 2016, OPM agreed to temporarily 
hold any actions to recalculate retirement benefits for 1811 Criminal 
Investigator annuitants that have already had LEAP included as part of 
basic pay, or Federal Air Marshals who earned over the title 5 pay cap, 
while the respective agencies seek legislative resolution of the 
issues.
    Since enacting the hold on actions to recalculate annuities for 
retirees, TSA has learned of approximately 4 or 5 retired 1811 Criminal 
Investigators who have received debt notifications from OPM. TSA has 
advised law enforcement retirees that if they receive notification from 
OPM about a reassignment of their benefits that they should follow the 
instructions and deadline for seeking reconsideration set forth in the 
letter, and requested that they advise TSA of the actions so that TSA 
can track the progress. For law enforcement retirees who give 
permission, TSA will request OPM to place their debt on hold until a 
determination about the legislation is made.
    While awaiting resolution of these issues, OPM is applying the GS-
15, Step 10 premium pay cap in determining the amount of retirement-
creditable LEAP used in calculating the retirement annuity for Federal 
Air Marshals. These annuitants are receiving a reduced annuity even 
though they paid retirement contributions on their salary above the GS-
15, Step 10 premium pay cap. When OPM processes new retirement 
applications for TSA 1811 Criminal Investigators, LEAP is excluded in 
its entirety from basic pay. As a result, these 1811 Criminal 
Investigator annuitants are receiving significantly reduced annuities 
even though they paid retirement contributions commensurate with the 
LEAP they earned. In the absence of legislation to address the matter, 
OPM will refund excess retirement contributions.
    Question From Honorable William R. Keating for David P. Pekoske
    Question. If there were no budget constraints, how quickly could 
TSA deploy Computed Tomography machines, and what would TSA's plan be 
for deploying those machines?
    Answer. TSA currently plans to deploy more than 30 Computed 
Tomography (CT) machines to the field this summer for testing. Once 
testing is complete, TSA estimates that it will deploy qualified CTs in 
early 2019. The fiscal year 2019 President's budget includes funding 
for approximately 145 CTs. Under an unconstrained budget, the time line 
for deployment of CT machines would depend on the following factor and 
assumptions:
  <bullet> At least one proposed CT system meets requirements and TSA 
        receives a successful Acquisition Decision Event that approves 
        moving forward with full rate production and deployment;
  <bullet> No delay to the CT procurement and deployment schedule due 
        to bid protest litigation;
  <bullet> The ability and timeliness of the Original Equipment 
        Manufacturer to manufacture and deliver CT systems and provide 
        the resources to support multiple deployment teams to meet the 
        schedule; and
  <bullet> Stakeholder support in executing the aggressive schedule, 
        such as help streamlining necessary permitting requirements to 
        allow changes to airport infrastructure.
    Once the testing is complete in fiscal year 2018, TSA will better 
be able to detail plans for deploying CTs under an unconstrained budget 
environment.
 Questions From Ranking Member Bennie G. Thompson for Jeffrey David Cox
    Question 1. How would you characterize AFGE's engagement with TSA 
since Administrator Pekoske started last year?
    Answer. AFGE's engagement with TSA Administrator Pekoske has been 
quite limited. Since last August, I have met with Administrator Pekoske 
and spoken by phone with him once. The administrator recently scheduled 
a June meeting with the representatives of AFGE TSA Council 100, 
elected by Council 100 membership earlier this month.
    Question 2. Do you believe TSA leadership and management engages 
effectively with the workforce?
    Answer. No, TSA leadership and management does not engage 
effectively with the workforce. Almost 17 years since the agency's 
creation in 2001, TSA leadership and management policies and practices 
strongly discourage workforce participation. In 2018, TSA canceled 
quarterly management meetings, the National Advisory Council, and the 
Diversity Advisory Council. Labor Management Relations meetings that 
previously took place over 1 week have shrunk to 2 days. Although TSA 
has stated that agency management at individual airports could hold the 
meetings there was no directive to do so. As a result, many Federal 
Security Directors and Assistant Federal Security Directors have not 
held these meetings. The Councils' and quarterly management meetings 
allowed TSA management and AFGE opportunities to discuss and address 
personnel issues. AFGE's membership reports that TSA's random ``town 
hall'' meetings at airports have been invitation-only, excluding union 
representatives, and disproportionately comprised of managers and other 
employees outside of the AFGE bargaining unit. TSA has effectively 
ended forums available for the exclusive representative of the largest 
and most critical workforce at the agency to address workplace issues 
through their exclusive representative.
   Questions From Honorable William R. Keating for Jeffrey David Cox
    Question 1a. As you are aware, some airports have chosen to 
privatize the workforce at their security checkpoints by applying to 
TSA's Screening Partnership Program, and other airports are considering 
whether to apply.
    What effects has privatization had on officers at airports that 
have chosen to transition from Federal to private workforce?
    Answer. As reported to AFGE, TSOs who transition from Federal to 
private workforce have a lot to lose under the Screening Partnership 
Program (SPP). As an employee of a private security contractor, former 
TSOs are unlikely to be represented by a union and become at-will 
employees who can be fired without appeal rights. Pay raises are meager 
and inconsistent, and TSOs with less than 5 years with the Federal 
Government lose their pensions and may lose their future retirement 
benefits. Former TSOs are no longer eligible for FEHB benefits and will 
pay more out-of-pocket for their health care costs. Working for a 
private security contractor is not a good job.
    Question 1b. How do threats to privatize affect workforce morale?
    Answer. I have witnessed AFGE's TSO members as they try to remain 
focused on their jobs while concerned about the likely deterioration of 
security and the economic well-being of their families if screening is 
privatized. SPP applications sometimes follow months or years of 
insults and negative statements by members of airport boards. Rumors 
abound among the TSA workforce, and at times, TSA airport management 
erroneously tells TSOs there is nothing they or their union can do to 
stop the inevitability of privatization. Some TSOs must consider 
whether to uproot their families and apply to transfer to another 
airport even though they are not guaranteed the same job with TSA. The 
other options left for TSOs under SPP are to apply for a worse job with 
the private security contractor or quit. TSOs already remain focused on 
security despite the lack of statutory civil service workforce rights 
and protections denied by TSA, overwork due to chronic understaffing, 
and low pay. The additional concern of possible job loss due to no 
fault of the workforce is a heavy burden for TSOs to bear.

                                 <all>
</pre></body></html>
